No. _________
In the
Supreme Court of the United States
________________
Minnesota Voters Alliance, Andrew Cilek, Kim Crockett, Craig Anderson,
Yvonne Hundshamer, Craig Jones,
Applicants,
v.
Tim Walz, in his official capacity as Governor of Minnesota, or his successor;
Steve Simon, in his official capacity as Secretary of State of Minnesota, or his
successor, Mark V. Chapin, in his official capacity as Hennepin County Auditor, or
his successor, Christopher A. Samuel, in his official capacity as Ramsey County
Auditor, or his successor, Keith Ellison, in his official capacity as Attorney General of
Minnesota, or his successor, Mike Freeman, in his official capacity as Hennepin
County Attorney, or his successor, John Choi, in his official capacity as Ramsey
County Attorney, or his successor,
Respondents.
________________
To the Honorable Neil M. Gorsuch,
Associate Justice of the United States Supreme Court
and Circuit Justice for the Eighth Circuit
________________
Emergency Application for an Injunction Pending Appellate Review
________________
Erick G. Kaardal, MN 229647
Special Counsel to Amistad Project
of the Thomas More Society
Mohrman, Kaardal & Erickson, P.A.
150 South Fifth Street, Suite 3100
Minneapolis, Minnesota 55402
Telephone: 612-341-1074
Facsimile: 612-341-1076
Email: kaardal@mklaw.com
Counsel of Record

Pursuant to this Court’s Rule 22 and the All Writs Act, 28 U.S.C. 1651, the
undersigned, on behalf of the Minnesota Voters Alliance and individual applicantmembers, respectfully apply for an injunction pending appellate review of the October
2, 2020 order denying preliminary injunctive relief issued by the United States District
Court for the District of Minnesota, pending the consideration and disposition of the
appeal from that order to the United States Court of Appeals for the Eighth Circuit
and, if necessary, pending the filing and disposition of a petition for a writ of certiorari
and any further proceedings in this Court. The United States Court of Appeals for the
Eighth Circuit on October 26, 2020 denied a motion for injunction pending appellate
review. The Applicants need the injunction pending appellate review so that they can
vote in-person on November 3, 2020 and future elections during the appellate review.
Minnesota’s conflicting mask policies are the constitutional problem. On one
hand, Minnesota Statutes § 609.735 makes wearing a mask a crime. On the other hand,
the Governor’s Executive Order No. 20-81 makes not wearing a mask a crime. The
Secretary of State has put out a memorandum to election judges at polling places to
take down Minnesota’s voters who violate Minnesota’s mask laws. In response,
Applicants, not wanting to violate Minnesota’s laws criminalizing both wearing and not
wearing a mask refrained from political activities and in-person voting for the August
11, 2020 primary. Now, applicants seek an injunction pending appellate review so that
they can participate in political activities and engage in in-person voting on November
3, 2020 and in future election, without threat of criminal and civil prosecution, during
the appellate review.

i

CORPORATE DISCLOSURE STATEMENT
Pursuant to Supreme Court Rule 29.6, Minnesota Voters Alliance states that it
is a non-stock, non-profit corporation, has no parent corporation, and is not a publicly
held company.
PARTIES TO THE PROCEEDING
The Applicants (plaintiffs-Appellants below) are Minnesota Voters Alliance,
Andrew Cilek, Kim Crockett, Craig Anderson, Yvonne Hundshamer and Craig Jones.
The respondents (defendant-Respondents below) are Tim Walz, in his official
capacity as Governor of Minnesota, Steve Simon, in his official capacity as Secretary of
State of Minnesota, Mark V. Chapin, in his official capacity as Hennepin County
Auditor, Christopher A. Samuel, in his official capacity as Ramsey County Auditor,
Keith Ellison, in his official capacity as Attorney General of Minnesota, Mike Freeman,
in his official capacity as Hennepin County Attorney, John Choi, in his official capacity
as Ramsey County Attorney.
LIST OF ALL PROCEEDINGS
The proceedings below are as follows: Minnesota Voters Alliance, et al. v. Walz,
et al., U.S. District Court for the District of Minnesota case no. 20-cv-1688
PJS/ECW; and Minnesota Voters Alliance, et al. v. Walz, et al., U.S. Court of Appeals for
the Eighth Circuit case no. 20-3072.
DECISIONS BELOW
On August 4, 2020, the Applicants Minnesota Voters Alliance, Andrew Cilek,
Kim Crockett, Craig Anderson, Yvonne Hundshamer and Craig Jones filed a complaint

ii

seeking a judgment, declaration and injunction alleging that Minnesota’s combination
of laws criminalizing wearing a mask and criminalizing not wearing a mask at polling
places and elsewhere violates the Free Speech Clause of the First Amendment of the
United States Constitution. ECF 1. At the August 11, 2020 primary, Applicants did
not engage in in-person voting because of Minnesota’ conflicting laws—chilling their
First Amendment expression; afterwards, they amended their complaint. ECF 7.
On October 2, the district court issued an order denying the motion for
preliminary injunctive relief. ECF 51, App. 1-35. On October 2, the Applicants
appealed under 28 U.S.C. § 1292 to the United States Court of Appeals for the Eighth
Circuit from the denial of preliminary injunction. ECF 52. On October 13, the district
court denied the motion for injunction pending appellate review. ECF 65, App. 3642. On October 26, the court of appeals denied the motion for injunction pending
appeal. App. 43.
Now, the applicants apply for an emergency injunction pending appellate review
to this Court so applicants can engage in in-person voting in the November 3 and
future elections during appellate review—as they were not able to do in the August 11,
2020 primary election due to Minnesota’s conflicting mask policies.
JURISDICTION
On August 4, 2020, the Applicants Minnesota Voters Alliance, Andrew Cilek,
Kim Crockett, Craig Anderson, Yvonne Hundshamer and Craig Jones filed a complaint
seeking a judgment, declaration and injunction alleging that Minnesota’s combination
of laws criminalizing wearing a mask and criminalizing not wearing a mask at polling

iii

places and elsewhere violates the Free Speech Clause of the First Amendment of the
United States Constitution. ECF 1. The district court has jurisdiction under 28 U.S.C.
1331, 28 U.S.C. 1343 and 42 U.S.C. 1983.
On October 2, the Applicants appealed to the United States Court of Appeals
for the Eighth Circuit from the district court’s denial of preliminary injunction. ECF
52. The court of appeals has jurisdiction over interlocutory appeals under 28 U.S.C.
1292.
This Court has jurisdiction under 28 U.S.C. 1651 and the Court’s precedents.
Minnesota Voters Alliance’s application is “in aid of [this Court’s] jurisdiction,” id.,
because the appellate process will take months to conclude, by which time the
November 3, 2020 election and other election will have occurred—and the Applicants
again will continued to be denied in-person voting as they were denied in the August
11, 2020 primary election.
CONSTITUTIONAL PROVISIONS INVOLVED
The First Amendment of the U.S. Constitution contains the Free Speech
Clause:
Congress shall make no law respecting an establishment of religion, or
prohibiting the free exercise thereof; or abridging the freedom of speech, or of
the press; or the right of the people peaceably to assemble, and to petition the
Government for a redress of grievances.
The First Amendment is incorporated through the Fourteenth Amendment against the
states and their political subdivisions.

iv

TABLE OF CONTENTS
CORPORATE DISCLOSURE STATEMENT .............................................................ii
PARTIES TO THE PROCEEDING ..............................................................................ii
LIST OF ALL PROCEEDINGS ......................................................................................ii
DECISIONS BELOW .......................................................................................................ii
JURISDICTION .................................................................................................................iii
CONSTITUTIONAL PROVISIONS INVOLVED .................................................. iv
TABLE OF AUTHORITIES ......................................................................................... vii
Statement of Facts................................................................................................................2
Applicants’ political activities in public places and in-person voting are
chilled by the Respondents’ threat of prosecution under Minnesota’s
policy regarding masks. .................................................................................................2
Procedural Background .................................................................................................5
Executive Order 20-81 makes it a crime not to wear a mask. .................................5
Minnesota Statutes § 609.735 makes it a crime to wear a mask in public
places. ..............................................................................................................................6
The Attorney General and County Attorneys are to prosecute
Applicants, criminally and civilly, for wearing a mask and prosecute
Applicants for not wearing a mask in public places, including polling
places. ..............................................................................................................................6
The Secretary of State and County Auditors are enforcing a policy to
wear a mask in the polling place—while it is a crime to do so under
Minnesota Statutes § 609.735. ......................................................................................8
Because of Minnesota’s policy regarding masks in public places and
polling places, the Applicants will not politically participate in public
places and will not vote in-person on November 3. .................................................8
Argument ..............................................................................................................................9
The Applicants are entitled to a preliminary injunction pending appellate
review...............................................................................................................................9

v

I. The Applicants have a substantial probability of success on the
merits. ........................................................................................................................9
II. The moving party will suffer irreparable injury absent the injunction.
................................................................................................................................. 15
CONCLUSION ................................................................................................................ 19

Appendix
Order Denying Preliminary Injunction, Minnesota Voters Alliance, et al. v.
Tim Walz, et al., USDC MN No. 20-cv-01688, dated October 2, 2020 .............. App. 1
Order regarding Motion for Stay, Minnesota Voters Alliance, et al. v. Tim
Walz, et al., USDC MN No. 20-cv-01688, dated October 13, 2020 .................. App. 36
Order, Motion for Injunction Denied, Minnesota Voters Alliance, et al. v.
Tim Walz, et al., US COA 8th Cir. No. 20-3072, dated October 26, 2020 ......... App. 43

vi

TABLE OF AUTHORITIES
Cases
Atkin v. Kansas, 191 U. S. 207, 48 L. ed. 148, 24 Sup. Ct. Rep. 124 ................................. 2
Breswick & Co. v. U.S., 75 S.Ct. 912 (U.S. 1955) ........................................................... 1, 15
Elrod v. Burns, 427 U.S. 347 (1976) ............................................................................... 15, 17
Jacobson v. Commonwealth of Massachusetts, 197 U.S. 11 (1905) .............................................. 2
Minnesota v. Barber, 136 U. S. 313, 34 L. ed. 455, 3 Inters. Com. Rep.
185, 10 Sup. Ct. Rep. 862 .................................................................................................. 2
Minnesota Voters Alliance v. Mansky, 138 S.Ct. 1876 (2018) ....................................... passim
Mugler v. Kansas, 123 U. S. 623, 31 L. ed. 205, 8 Sup. Ct. Rep. 273 .................................. 1
Planned Parenthood Minnesota, North Dakota, South Dakota v. Rounds, 530 F.3d
724 (8th Cir. 2008) ............................................................................................................15
Seaton v. Wiener, 22 F.Supp.3d 945 (D. Minn. 2014) .........................................................15
Yakus v. United States, 321 U.S. 414 (1943) .................................................................... 1, 15
Statutes
28 U.S.C. 1292 ........................................................................................................................iv
28 U.S.C. 1331 ........................................................................................................................iv
28 U.S.C. 1343 ........................................................................................................................iv
28 U.S.C. 1651 .................................................................................................................... i, iv
42 U.S.C. 1983 ........................................................................................................................iv
Minnesota Statutes § 12.31 .................................................................................................... 5
Minnesota Statutes § 609.735 ...................................................................................... passim
Other Authorities
https://mn.gov/governor/news/executiveorders.jsp ....................................................... 5
Rules
Supreme Court Rule 29.6 ....................................................................................................... ii

vii

To the Honorable Neil M. Gorsuch as Circuit Justice for the U.S. Court of Appeals
for the Eighth Circuit:
The Applicants seek from this Court an injunction pending appellate review. In
addition to considering the merits, this Court balances the equities when granting
injunctions, “Where the question is whether an injunction should be granted the
irreparable injury facing the plaintiff must be balanced against the competing equities
before an injunction will issue.” Breswick & Co. v. U.S., 75 S.Ct. 912, 915 (U.S. 1955),
citing Yakus v. United States, 321 U.S. 414, 440 (1943). The Applicants meet the Court’s
standards for injunction pending appellate review.
The proposed injunction pending appellate review would enjoin the Respondents
from enforcing its mask policies criminalizing both wearing and not wearing a mask at
the polling places and elsewhere because those conflicting policies are not “capable of
reasoned application”:
Minnesota has not supported its good intentions with a law capable of
reasoned application.
Minnesota Voters Alliance v. Mansky, 138 S.Ct. 1876, 1892 (2018). “The capable of
reasoned application” legal standard is synonymous to “palpably unconstitutional”
legal exception found in Jacobson:
If there is any such power in the judiciary to review legislative action in respect
of a matter affecting the general welfare, it can only be when that which the
legislature has done comes within the rule that, if a statute purporting to have
been enacted to protect the public health, the public morals, or the public safety,
has no real or substantial relation to those objects, or is, beyond all question, a
plain, palpable invasion of rights secured by the fundamental law, it is the duty
of the courts to so adjudge, and thereby give effect to the
Constitution. Mugler v. Kansas, 123 U. S. 623, 661, 31 L. ed. 205, 210, 8 Sup. Ct.
Rep. 273; Minnesota v. Barber, 136 U. S. 313, 320, 34 L. ed. 455, 458, 3 Inters.
1

Com. Rep. 185, 10 Sup. Ct. Rep. 862; Atkin v. Kansas, 191 U. S. 207, 223, 48 L.
ed. 148, 158, 24 Sup. Ct. Rep. 124.
Jacobson v. Commonwealth of Massachusetts, 197 U.S. 11, 31 (1905). In fact, for the Jacobson
case to be like this case, the Commonwealth would have had to criminalize both being
vaccinated as well as not being vaccinated. So, even during a pandemic, at least with
respect to First Amendment activities, state and local policies criminalizing FirstAmendment-protected conduct must be “capable of reasoned application” or the state
and local policies are “palpably unconstitutional” under both Jacobson and Mansky.
Jacobson, 197 U.S. at 31; Mansky, 138 S.Ct. at 1892. The Respondents’ conflicting mask
policies unnecessarily restrict First Amendment rights.
Statement of Facts
Applicants’ political activities in public places and in-person voting are chilled
by the Respondents’ threat of prosecution under Minnesota’s policy regarding
masks.
The Applicants have been active politically.1 They want to participate in general
election activities in public places and participate in in-person voting on November 3.2
As to the August 11 primary, four individual Applicants—Anderson, Crockett,
Hundshamer and Jones—wanted to vote in-person at the August 11 primary, but did
not do so because of the Respondents’ policy regarding masks.3 They did not vote
absentee for the primary and wanted to vote in-person at their respective primary

Anderson Dec. ¶3; Cilek Dec. ¶3; Crockett Dec. ¶3; Hundshamer Dec. ¶3; Jones
Dec. ¶3.
2 Anderson Sec. Dec. ¶6; Crockett Sec. Dec. ¶6; Hundshamer Sec. Dec. ¶6; Jones Sec.
Dec. ¶6.
3 Anderson Sec. Dec. ¶5; Crockett Sec. Dec. ¶5; Hundshamer Sec. Dec. ¶5; Jones Sec.
Dec. ¶5.
1

2

polling places in Hennepin and Ramsey Counties because they thought it was more
secure.4
Prior to the primary, the four Applicants had read Minnesota Statutes § 609.735
which criminalizes wearing a mask in public.5 The four Applicants had read Executive
Order 20-81 which criminalizes not wearing a mask in public.6 The four Applicants
understood that the Secretary of State’s July 22, 2020 instructions to precinct election
judges encouraged the election judges to write down names for prosecution for
violating Minnesota’s laws on mask wearing.7 A Minnesota County Attorney and
criminal defense attorney agreed that Minnesota Statutes § 609.735 criminalizes
wearing a mask and that Emergency Executive Order 20-81 criminalizes not wearing a
mask.8
Because the four Applicants were aware of Minnesota’s policy of criminalizing
both wearing and not wearing a mask, the four Applicants did not participate in the
primary campaign political activities and did not vote in-person at the primary on
August 11.9 The four Applicants’ political participation in primary political activities in
public places and in-person primary voting was chilled by Minnesota’s policy
criminalizing both wearing and not wearing a mask.10

Anderson Dec. ¶6; Crockett Dec. ¶6; Hundshamer Dec. ¶6; Jones Dec. ¶6.
Anderson Dec. ¶7; Crockett Dec. ¶7; Hundshamer Dec. ¶7; Jones Dec. ¶7.
6 Anderson Dec. ¶8; Crockett Dec. ¶8; Hundshamer Dec. ¶8; Jones Dec. ¶8.
7 Anderson Dec. ¶9; Crockett Dec. ¶9; Hundshamer Dec. ¶9; Jones Dec. ¶9.
8 Kaardal Dec. Exs. 4 and 5.
9 Anderson Sec. Dec. ¶5; Crockett Sec. Dec. ¶5; Hundshamer Sec. Dec. ¶5; Jones Sec.
Dec. ¶5.
10 Anderson Dec. ¶11; Crockett Dec. ¶11; Hundshamer Dec. ¶11; Jones Dec. ¶11.
4
5

3

Similarly, as to the general election on November 11, 2020, the Applicants,
because of Minnesota’s policy criminalizing both wearing and not wearing a mask, will
not participate in the general election political activities in public places and will not
vote in-person at the primary on November 3.11 The Applicants’ political participation
in general election campaigning in public places and in-person general election voting
is being chilled by Minnesota’s policy criminalizing both wearing and not wearing a
mask.12
Additionally, the Applicants are not willing to attend Minnesota Voters
Alliance’s events in public places because of Minnesota’s policy of criminalizing both
wearing a mask and not wearing a mask in public places.13 Consequently, attendance
at plaintiff Minnesota Voters Alliance’s public events is diminished.14
If the Court does not grant the preliminary injunctive relief, the Applicants will
not be politically participating in general election political activities in public places, the
Applicants will not be voting in person at the general election polling places on
November 3, and the Applicants will not be attending Minnesota Voters Alliance’s
public events.15

Anderson Sec. Dec. ¶12; Crockett Sec. Dec. ¶12; Hundshamer Sec. Dec. ¶12; Jones
Sec. Dec. ¶12.
12 Anderson Sec. Dec. ¶13; Crockett Sec. Dec. ¶13; Hundshamer Sec. Dec. ¶13; Jones
Sec. Dec. ¶13.
13 Anderson Sec. Dec. ¶¶12, 14; Crockett Sec. Dec. ¶¶12, 14; Hundshamer Sec. Dec.
¶¶12, 14; Jones Sec. Dec. ¶¶12, 14.
14 Cilek Dec. ¶¶6-8.
15 Anderson Sec. Dec. ¶14; Crockett Sec. Dec. ¶14; Hundshamer Sec. Dec. ¶14; Jones
Sec. Dec. ¶14.
11

4

Procedural Background
On March 13, 2020, the Governor signed “Executive Order 20-01: Declaring a
Peacetime Emergency and Coordinating Minnesota's Strategy to Protect Minnesotans
from COVID-19.” Since then, the Governor has issued eighty-four executive orders,
nos. 20-01 through 20-84.16 The Governor has claimed legal authority to issue these
executive orders pursuant to Minnesota Statutes § 12.31, subdivision 2.17
The Governor has issued subsequent executive orders extending the peacetime
emergency for additional day thirty periods: Executive Order 20-35 on April 13, 2020;
Executive Order 20-53 on May 13, 2020; Executive Order 20-75 on June 12, 2020;
Executive Order 20-78 on July 13, 2020; and Executive Order 20-83 on August 12,
2020; Executive Order 20-89 on September 11, 2020; and Executive Order 20-92 on
October 12, 2020.
Generally, these executive orders extending the peacetime emergency noted that
the governor’s asserted authority could only be rescinded by “a majority vote of each
house of the legislature pursuant to Minnesota Statute 2019, section 12.31, subdivision
2(b).”18
Executive Order 20-81 makes it a crime not to wear a mask.
On July 22, 2020, Defendant Walz signed “Executive Order 20-81: Requiring
Minnesotans to Wear a Face Covering in Certain Settings to Prevent the Spread of

The Governor’s Office maintains a website with all the emergency executive orders
at: https://mn.gov/governor/news/executiveorders.jsp.
17 Executive Orders 20-01 to 20-84.
18 Executive Orders 20-35, 20-53, 20-75 and 20-78.
16

5

COVID-19.”19 Executive Order 20-81, page 3, generally asserts: “Minnesotans must
wear a face covering in indoor businesses and indoor public settings, including when
waiting outdoors to enter an indoor business or public indoor space.”20 Executive
Order 20-81, pages 13 and 14, establishes criminal enforcement provisions for not
wearing a mask, to-wit:
a.
For an individual, it is criminal petty misdemeanor not to be
wearing a mask: “Any individual [adult, non-student] who willfully
violates this Executive Order is guilty of a petty misdemeanor and upon
conviction must be punished by a fine not to exceed $100.”
b.
For a business, it is a criminal misdemeanor not to be wearing a
mask and requiring compliance: “Any business owner, manager, or
supervisor who fails to comply with this Executive Order is guilty of a
misdemeanor and upon conviction must be punished by a fine not to
exceed $1,000, or by imprisonment for not more than 90 days.” 21
Minnesota Statutes § 609.735 makes it a crime to wear a mask in public places.
To the contrary, Minnesota Statutes § 609.735 makes wearing a mask in public
places a criminal act, punishable by up to 90 days imprisonment and/or a $1000 fine.22
The only exception to this prohibition is if wearing a mask is “based on religious beliefs,
or incidental to amusement, entertainment, protection from weather, or medical
treatment.” 23 Id.
The Attorney General and County Attorneys are to prosecute Applicants,
criminally and civilly, for wearing a mask and prosecute Applicants for not
wearing a mask in public places, including polling places.
Under the Governor’s executive orders and Minnesota’s statutes, the Attorney

Kaardal Dec. Ex. 1.
Id.
21 Id.
22 Kaardal Dec. Ex. 3.
23 Id.
19
20

6

General and county attorneys prosecute crimes and pursue civil remedies.24 Minnesota
Statutes § 609.735 makes wearing a mask in a public place a criminal act. Under
Minnesota Statutes § 609.735, Respondents Attorney General Ellison, Hennepin
County Attorney Freeman and Ramsey County Attorney Choi threaten prosecution of
Applicants for wearing a mask.25 The Governor’s Executive Order 20-81 makes not
wearing a mask in a public place a criminal act. Under Governor’s Executive Order 2081, Respondents Attorney General Ellison, Hennepin County Attorney Freeman and
Ramsey County Attorney Choi prosecute, criminally or civilly, Applicants for not
wearing a mask.26
So, Applicants, when engaged in political participation in public places, are to
be criminally or civilly prosecuted by Respondents Attorney General Ellison, Hennepin
County Attorney Freeman and Ramsey County Attorney Choi for wearing a mask and
for not wearing a mask.27 Either way, the Applicants get prosecuted.28 For example,
the Attorney General’s Office on July 31 filed a lawsuit against North Star Ranch, LLC,
for violating the Governor’s executive orders.29

See, e.g., Executive Order 20-81 at 14 (“In addition to these criminal penalties, the
Attorney General, as well as city and county attorneys, may seek any civil relief
available pursuant to Minnesota Statutes 2019, section 8.31, for violations of this
Executive Order, including civil penalties up to $25,000 per occurrence from
businesses and injunctive relief.”); Minnesota Statutes § 8.31 (additional duties of
Attorney General), § 211B.16 (county attorneys prosecute under Minnesota’s fair
campaign practices law); § 388.01, et seq. (on county attorneys).
25 Id.
26 Id.
27 Id.
28 Id.
29 Kaardal Dec. 6.
24

7

The Secretary of State and County Auditors are enforcing a policy to wear a
mask in the polling place—while it is a crime to do so under Minnesota
Statutes § 609.735.
Defendant Secretary of State Simon in his written policy implementing the mask
mandate dated July 22, 2020, requires county auditors and other election officials to
enforce upon all persons in the polling place the Executive Order 20-81 mask
mandate—under threat of prosecution—regardless of Minnesota Statutes § 609.735:
If the voter insists on voting in the polling place without a face covering, record
any violation of the face cover order…Record the name and addresses of a
voter from the polling place roster in the incident log along with a notation that
the voter refused to comply with the facial covering executive order…30
Under Secretary of State Simon’s policy, County Auditor Chapin and Ramsey
County Auditor Samuel enforce a policy upon voters to wear a mask in the polling
place—under threat of prosecution under Executive Order 20-81.31 But, under
Minnesota Statutes § 609.735, the same people that Respondents Simon, Chapin and
Samuel are recommending, encouraging and ordering to wear a mask are committing
a crime by wearing the mask under Minnesota Statutes § 609.735.32
Because of Minnesota’s policy regarding masks in public places and polling
places, the Applicants will not politically participate in public places and will
not vote in-person on November 3.
As detailed above, the Applicants desire to engage in First Amendment
protected activities relating to the November 3 election. 33 Such political speech

Kaardal Dec. Ex. 2 at 2.
Id.
32 Id.
33 Anderson Dec. ¶3; Cilek Dec. ¶3; Crockett Dec. ¶3; Hundshamer Dec. ¶3; Jones
Dec. ¶3.
30
31

8

activities are at the core of First Amendment protection.34
The individuals also engage in in-person voting at primary elections and general
elections.35 Respondents, collectively, have taken steps towards criminalizing or
prosecuting Applicants when wearing a mask in a public place, including polling places,
and criminalizing or prosecuting Applicants when not wearing a mask in public places,
including polling places.36
Minnesota’s policy suppresses political participation and voter attendance. 37
Since Minnesota criminalizes both wearing and not wearing a mask in public places,
the Applicants will not participate in First Amendment protected activities in public
places and in polling places for the November 3 election and beyond.38
Argument
The Applicants are entitled to a preliminary injunction pending appellate
review.
The Applicants respectfully request the Court to grant an injunction pending
appellate review because the factors for an injunction pending appellate review have
been met.
I.

The Applicants have a substantial probability of success on the merits.
The Applicants have a substantial probability of success on the merits. The district

Cilek Dec. ¶5.
Anderson Sec. Dec. ¶¶5, 7; Crockett Sec. Dec. ¶¶5, 7; Hundshamer Sec. Dec. ¶¶5,
7; Jones Sec. Dec. ¶¶5, 7.
36 Kaardal Dec. Exs. 1-3.
37 See, e.g., Anderson Sec. Dec. ¶¶5, 12; Crockett Sec. Dec. ¶¶5, 12; Hundshamer Sec.
Dec. ¶¶5, 12; Jones Sec. Dec. ¶¶5, 12.
38 Anderson Sec. Dec. ¶¶13, 14; Crockett Sec. Dec. ¶¶13, 14; Hundshamer Sec. Dec.
¶¶13, 14; Jones Sec. Dec. ¶¶13, 14.
34
35

9

court indicated in its Order denying the preliminary injunction:
[I]t appears that the Court likely has jurisdiction over Plaintiffs’ federal claims
against the Governor, Attorney General and the Hennepin Respondents, and
only insofar as those claims rest on Applicants’ allegations that EO 20-81
conflicts with § 609.735.
Order (Oct. 2, 2020) at 20. So, for the purpose of this motion, Applicants focus on
claims based on “Plaintiffs’ allegations that EO 20-81 conflicts with § 609.735.”
The district court’s order adopted the government’s standard of review which
is inaccurate. The U.S. Supreme Court decision in Mansky required Minnesota laws in
the polling place to be at least “capable of a reasoned application”:
Minnesota has not supported its good intentions with a law capable of
reasoned application.
Mansky, 138 S.Ct. 1876, 1892 (2018). Applicants have asserted this is the legal standard
of review for their First Amendment claims in this case.
It’s the State’s fault that the district court was led astray. For example, the State
in its memorandum to dismiss at pages 7 through 12 does not acknowledge that the
standard of review set in Mansky applies to Minnesota’s polling places. Instead, the
State’s argument begins at page 7 with “Applicants’ claims are based on a faulty
assumption” and goes on for five pages without referencing Mansky or any other legal
standard.
In a similar way, the district court’s October 2 order at pages 21 through 26
addressing the merits of whether § 609.735 conflicts with Executive Order 20-81 does
not acknowledge the standard of review set in Mansky for Minnesota’s polling places.
Instead, the district court’s order analyzes how the Minnesota Supreme Court might

10

interpret § 609.735. To be sure, the district court later in denying the motion for
injunction pending appeal specifically addressed the applicability of Mansky. Order
(Oct. 13, 2020) at 4-6 (“In short, Mansky has little to do with this case.”)
The Applicants’ concern is that Mansky does apply, and if it does apply, they are
entitled to an injunction pending appellate review. The U.S. Supreme Court in Mansky
did not ask itself what the Minnesota Supreme Court might think of the election law at
issue. The U.S. Supreme Court decision in Mansky was not based on how the Minnesota
Supreme Court might interpret Minnesota statutes, but instead on how elections judges
might interpret them. After all, that is how voters are affected by real, live elections
judges telling them what they can and cannot do.
Once the right legal standard is applied from Mansky, then the case turns on
whether § 609.735 conflicts with Executive Order 20-81. The Applicants acknowledge
the district court’s orders, but encourages this Court to consider in the context of
injunction pending appeal, whether the Applicants are likely to succeed on the merits.
The district court’s Order dated October 2 at pages 21 through 26 engages in
legal interpretation of the statute without applying the Mansky standard of review:
“capable of a reasoned application.” In Mansky, the U.S. Supreme Court did not
undertake the inquiry the district court did in “predict[ing]” what the Minnesota
Supreme Court would say.” No, in Mansky, the relevant inquiry was what would
election judges interpreting the law say. In other words, among election judges, is the
law “capable of a reasoned application.”

11

Because Mansky applies, the Applicants are still likely to prevail on the Amended
Complaint’s Count 2 under the Mansky “not capable of reasoned application” standard
applicable to polling places which are a non-public forum for First Amendment
analysis. In Count 2, Applicants claim that Minnesota’s policy criminalizing both
wearing a mask and not wearing a mask in a polling place, a non-public forum, violate
the First Amendment right to free speech because it is “not capable of reasonable
application”:
Minnesota has not supported its good intentions with a law capable of reasoned
application.
Mansky, 138 S.Ct. at 1892.
Since the Supreme Court has already invalidated a similar provision of
Minnesota law which prohibited political apparel in the polling place, the controlling
precedent is readily available. In Mansky, the U.S. Supreme Court held that Minnesota's
political apparel ban restricted a form of expression protected by the First Amendment
and that a polling place in Minnesota qualifies as a nonpublic forum for First
Amendment purposes. 138 S.Ct. at 1888.
The U.S. Supreme Court acknowledged that Minnesota's political apparel ban
pursued permissible objectives of setting polling place aside as an “island of calm” in
which voters could peacefully contemplate their choices, but Minnesota's political
apparel ban violated the Free Speech Clause because it was “not capable of reasoned
application.” Id.
Although there is no requirement of narrow tailoring in a nonpublic
forum, the State must be able to articulate some sensible basis for
distinguishing what may come in from what must stay out.
12

See Cornelius, 473 U.S., at 808–809, 105 S.Ct. 3439. Here, the unmoored
use of the term “political” in the Minnesota law, combined with
haphazard interpretations the State has provided in official guidance and
representations to this Court, cause Minnesota's restriction to fail even
this forgiving test.
Id. at 1888. The U.S. Supreme Court explained:
[Minnesota] Election judges “have the authority to decide what is
political” when screening individuals at the entrance to the polls. App.
to Pet. for Cert. I–1. We do not doubt that the vast majority of election
judges strive to enforce the statute in an evenhanded manner, nor that
some degree of discretion in this setting is necessary. But that discretion
must be guided by objective, workable standards. Without them, an
election judge's own politics may shape his views on what counts as
“political.” And if voters experience or witness episodes of unfair or
inconsistent enforcement of the ban, the State's interest in maintaining
a polling place free of distraction and disruption would be undermined
by the very measure intended to further it.
Id. at 1891.
The Mansky decision is binding in this case.

First, Minnesota's policy

criminalizing wearing a mask and criminalizing not wear a mask are restricting a form
of expression protected by the First Amendment—wearing apparel while attending a
polling place. The Applicants have testified in their declarations that they will not
participate in in-person voting at the general election polling places on November 3,
because of the threatened prosecutions for wearing a mask and threatened prosecutions
for not wearing a mask. It is their political protest—just like wearing Tea Party t-shirts
as in the Mansky case. Their right to vote in-person at the August 11 primary has already
been chilled.

13

Second, according to Mansky, polling places in Minnesota qualify as nonpublic
forums for First Amendment purposes. So, the test in this case is whether Minnesota’s
laws affecting the polling place are “not capable of reasoned application.”
Third, if Minnesota's regulations affecting attendance at the polling places are
“not capable of reasoned application,” they violate the Free Speech Clause:
The State's “electoral choices” standard, considered together with the
nonexclusive examples in the Election Day Policy, poses riddles that
even the State's top lawyers struggle to solve. A shirt declaring “All Lives
Matter,” we are told, could be “perceived” as political. Tr. of Oral Arg.
41. How about a shirt bearing the name of the National Rifle
Association? Definitely out. Id., at 39–40. That said, a shirt displaying a
rainbow flag could be worn “unless there was an issue on the ballot” that
“related somehow ... to gay rights.” Id., at 38 (emphasis added). A shirt
simply displaying the text of the Second Amendment? Prohibited. Id., at
40. But a shirt with the text of the First Amendment? “It would be
allowed.” Ibid.
Id. at 1891.
Similarly, in this case, the Governor’s Executive Order 20-81 and the Secretary
of State’s July 22 memorandum adopted policies criminalizing not wearing a mask at
the polling places while Minnesota Statutes § 609.735 criminalizes wearing a mask in
the polling places. In a hypothetical oral argument, the Respondents will struggle in
this case to solve the dilemma presented by the Governor’s Executive Order 20-81 and
the Secretary of State’s July 22 memorandum and Minnesota Statutes § 609.735.
Accordingly, Minnesota’s laws and policies are “not capable of a reasoned
application” as in Mansky. There is no “island of calm.” The consequence of the
government’s laws and policies has been and is an unnecessary chilling effect on the
Applicants who wish to exercise their political rights protected by the First

14

Amendment: in-person voting in the polling places on November 3.
II.

The moving party will suffer irreparable injury absent the injunction.
In addition to considering the merits, this Court balances the equities when

granting injunctions, “Where the question is whether an injunction should be granted
the irreparable injury facing the plaintiff must be balanced against the competing
equities before an injunction will issue.” Breswick & Co. v. U.S., 75 S.Ct. 912, 915 (U.S.
1955), citing Yakus v. United States, 321 U.S. 414, 440 (1943).
Here, the balance of equities favors issuing the injunction pending appellate
review. Private unconstitutional interference with the November 3 elections pose the
same type of “irreparable injury” and are analogous to “irreparable injury” for First
Amendment deprivations. “The loss of First Amendment freedoms, for even minimal
periods of time, unquestionably constitutes irreparable injury.” Elrod v. Burns, 427 U.S.
347, 373 (1976). There is no adequate legal remedy.
The Applicants, absent the injunction, will suffer irreparable injury. “The loss
of First Amendment freedoms, for even minimal periods of time, unquestionably
constitutes irreparable injury.” Elrod v. Burns, 427 U.S. 347, 373 (1976); Planned
Parenthood Minnesota, North Dakota, South Dakota v. Rounds, 530 F.3d 724, 752 (8th Cir.
2008). “For this reason, the irreparable harm factor generally weighs in the movant's
favor in First Amendment cases, although it is often intertwined with a court's
evaluation of the likelihood of success on the merits.” Seaton v. Wiener, 22 F.Supp.3d
945, 951 (D. Minn. 2014).

15

Here, the district court’s Order dated October 2 at page 32 states that
Applicants have not shown a “threat of irreparable harm, because they have not shown
that there is any chance that they will actually be prosecuted for violating § 609.735 if
they wear a face covering in compliance with EO 20-81.” But, the district court in
making its assessment of “no chance of prosecution” failed to account for the County
Attorney’s declaration interpreting Executive Order 20-81 to criminalize not wearing a
mask and § 609.735 criminalizing wearing a mask:
4. On July 22, 2020, the Governor signed “Executive Order 20-81: Requiring
Minnesotans to Wear a Face Covering in Certain Settings to Prevent the
Spread of COVID-19.”
5. Executive Order No. 20-81, page 3, generally asserts, “Minnesotans must wear
a face covering in indoor businesses and indoor public settings.”
6. Executive Order No. 20-81, pages 13 and 14, establishes criminal enforcement
provisions for not wearing a mask, to-wit:
a.

b.

For an individual, it is criminal petty misdemeanor not to be
wearing a mask: “Any individual [adult, non-student] who
willfully violates this Executive Order is guilty of a petty
misdemeanor and upon conviction must be punished by a fine
not to exceed $100.”
For a business, it is a criminal misdemeanor not to be wearing a
mask and requiring compliance: “Any business owner, manager,
or supervisor who fails to comply with this Executive Order is
guilty of a misdemeanor and upon conviction must be punished
by a fine not to exceed $1,000, or by imprisonment for not
more than 90 days.”

7. However, Minn. Stat. § 609.735 makes wearing a mask in a public place a
criminal act, punishable by up to 90 days imprisonment and/or a $1000 fine.
8. The only exceptions to this prohibition is if wearing a mask is “based on
religious beliefs, or incidental to amusement, entertainment, protection from
weather, or medical treatment.”

16

9. Under common definitions of “treatment,” mask-wearing to prevent a
contagious disease is not medical “treatment.” That is why the executive
order seeks to assert on page 13 of Executive Order 20-81 that “(w)earing a
face covering in compliance with this Executive Order or local ordinances,
rules, or orders is not a violation of Minnesota Statutes 2019, section
609.735.”
10. The combination of Minn. Stat. § 609.735 and Executive Order 20-81 makes
it a crime in Minnesota to wear a mask and a crime in Minnesota not to wear a
mask.
Franzese Dec., Am. Compl., Ex. 5. A leading criminal defense attorney has arrived at
the same conclusion. Am. Compl., Ex. 4. There could not be any better evidence of
a credible threat of prosecution than a First Amendment plaintiff presenting a
prosecutor’s declaration stating that the alleged First Amendment protected activity is
a crime. Consistent with the Franzese Declaration, the district court’s Order dated
October 2 at page 33, note 13, acknowledges that § 609.735 has been “mentioned in a
handful of reported cases”—one case as recent as 2011.
The balancing of harms in First Amendment cases generally favors granting the
injunction.” Elrod v. Burns, 427 U.S. 347, 373 (1976).The balance of equities typically
favors the constitutionally-protected freedom of expression. Id. As discussed above,
the Applicants are irreparably harmed by the loss of their First Amendment free speech
and associational rights. On the other hand, the harm that Respondents will experience
if enforcement of Executive Order 20-81 and Minnesota Statutes § 609.735 is enjoined
is little or none. The policies conflict: criminally prohibiting both wearing and not
wearing a mask. No one benefits. Everyone is harmed.

17

But, to the contrary, the district court’s October 2 Order at page 33 adopts the
view that there is no First Amendment harm if the state legislates the First Amendment
protected activity as a crime as long as the prosecutors don’t prosecute:
The record before the Court contains no evidence that either § 609.735
or its predecessor has ever been enforced, despite being on the books
for nearly a century. Meanwhile, over the past six months, millions of
Minnesotans have worn face coverings in indoor public settings, such as
stores, restaurants, salons, medical facilities, places of worship, offices,
and classrooms. If Applicants’ reading of § 609.735 is correct, then the
statute has been violated hundreds of millions of times during the
pandemic. And yet Applicants cannot point to a single instance of
anyone being prosecuted under § 609.735 for wearing a face covering
during the pandemic.
(Footnote omitted.)
However, this sort of analysis by the district court is only possible without
the Mansky legal standard of review. Under the First Amendment analysis in Mansky,
people are entitled to polling place laws “capable of a reasoned application.” So, the
Applicants, applying the correct legal standard to this case, read Executive Order 2081 and Minnesota Statutes § 609.735 and determined for themselves that Executive
Order 20-81 and Minnesota Statutes § 609.735 were not “capable of a reasoned
application.” For example, Yvonne Hundshamer’s Second Declaration states:
9. I have read Minnesota Statutes section 609.735 which criminalizes wearing a
mask.
10. I have read Emergency Executive Order No. 20-81 which criminalizes not
wearing a mask.
11. I understand that a Secretary of State’s July 22, 2020 instructions to precinct
election judges encourages the election judges to write down names for
prosecution for violating Minnesota’s laws on mask wearing.

18

12. Because of Minnesota’s combination of laws and policies criminalizing both
wearing and not wearing a mask, I will not be politically participating in the
election campaign and I will not be voting in person at the election on
November 3, 2020. For the same reason, I will not be attending Minnesota
Voters Alliance events in public places.
Hers is a rational response to the government criminalizing wearing and not wearing a
mask. The district court orders expect her to make an additional unreasonable
calculation for a citizen to make, “What is the chance I will get prosecuted?”
Nonetheless, staying at home and not participating politically is a harm to
the Applicants. Not voting in-person on November 3 is a harm to the Applicants. The
government is not harmed by Applicants’ political participation. If the government
wants to criminalize not wearing a mask, it can do so by repealing § 609.735. It’s not
a harm to the government to pick up the legislative pencil and enact a law repealing §
609.735. But, the government won’t do it.
CONCLUSION
The Court should issue an injunction pending appellate review so that the
applicants can engage in in-person voting at the November 3, 2020 general election
and future elections.
Dated: October 26, 2020.

/s/Erick G. Kaardal
Erick G. Kaardal, 229647
Mohrman, Kaardal & Erickson, P.A.
150 South Fifth Street, Suite 3100
Minneapolis, Minnesota 55402
Telephone: (612) 341-1074
Facsimile: (612) 341-1076
Email: kaardal@mklaw.com
Attorneys for Applicants

19

CASE 0:20-cv-01688-PJS-ECW Doc. 51 Filed 10/02/20 Page 1 of 35

UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA
MINNESOTA VOTERS ALLIANCE;
ANDREW CILEK; KIM CROCKETT;
CRAIG ANDERSON; YVONNE
HUNDSHAMER; and CRAIG JONES,

Case No. 20‐CV‐1688 (PJS/ECW)

Plaintiffs,
v.

ORDER

TIM WALZ, in his official capacity as
Governor of Minnesota; STEVE SIMON,
in his official capacity as Secretary of
State of Minnesota; MARK V. CHAPIN,
in his official capacity as Hennepin
County Auditor; CHRISTOPHER A.
SAMUEL, in his official capacity as
Ramsey County Auditor; KEITH
ELLISON, in his official capacity as
Attorney General of Minnesota; MIKE
FREEMAN, in his official capacity as
Hennepin County Attorney; and JOHN
CHOI, in his official capacity as Ramsey
County Attorney,
Defendants.

Erick G. Kaardal, MOHRMAN, KAARDAL & ERICKSON, P.A., for plaintiffs.
Elizabeth C. Kramer, Megan J. McKenzie, and Kevin A. Finnerty, MINNESOTA
ATTORNEY GENERAL’S OFFICE, for defendants Tim Walz, Steve Simon, and
Keith Ellison.
Kelly K. Pierce and Jeffrey M. Wojciechowski, HENNEPIN COUNTY
ATTORNEY’S OFFICE, for defendants Mike Freeman and Mark V. Chapin.

APPENDIX 1

CASE 0:20-cv-01688-PJS-ECW Doc. 51 Filed 10/02/20 Page 2 of 35

Robert B. Roche, RAMSEY COUNTY ATTORNEY’S OFFICE, for defendants
John Choi and Christopher A. Samuel.
On July 22, 2020, Governor Tim Walz issued Executive Order 20‐81, which
requires Minnesotans to wear face coverings in indoor public settings in order to control
the spread of COVID‐19. Plaintiffs—the Minnesota Voters Alliance and five political
activists—have brought this action against Governor Walz and other public officials1 to
challenge the legality of Executive Order 20‐81. Plaintiffs have framed this action as
primarily relating to the impact of Executive Order 20‐81 on their right to vote in the
upcoming election. In fact, though, plaintiffs argue that Executive Order 20‐81 is
invalid in its entirety—i.e., that Governor Walz does not have authority to order any
person to wear a face covering in any indoor public setting. Indeed, plaintiffs go even
further: Plaintiffs argue that it is illegal for any person to choose to wear a face covering
in a public place for the purpose of preventing the spread of COVID‐19.
This matter is before the Court on plaintiffs’ motion for a preliminary injunction.
The Court held a lengthy hearing on that motion on September 23, 2020. For the
reasons that follow, plaintiffs’ motion is denied.

1

Plaintiffs have sued Governor Walz, Secretary of State Steve Simon, and
Attorney General Keith Ellison (“the State defendants”); Hennepin County Attorney
Mike Freeman and Hennepin County Auditor Mark Chapin (“the Hennepin
defendants”); and Ramsey County Attorney John Choi and Ramsey County Auditor
Christopher Samuel (“the Ramsey defendants”).
-2-

APPENDIX 2

CASE 0:20-cv-01688-PJS-ECW Doc. 51 Filed 10/02/20 Page 3 of 35

I. BACKGROUND
A. The COVID‐19 Pandemic
COVID‐19 is a deadly disease caused by a virus that is easily spread between
people through respiratory droplets produced when an infected person coughs,
sneezes, or talks. Kramer Decl. Ex. 2. It appears that the virus may also be transmitted
via respiratory microdroplets that can travel in the air for tens of meters and remain
airborne for hours. Id. Exs. 3, 4. As a result, COVID‐19 is easily transmitted in indoor
environments, particularly if those environments are crowded or lack adequate
ventilation. Id. Ex. 3. The virus may be transmitted by infected people who have no
symptoms and do not even know that they are infected. Id. Exs. 5, 8.
On March 11, 2020, the World Health Organization declared a global pandemic.
Id. Ex. 6. Since the start of the pandemic, over 7.2 million cases of COVID‐19 in the
United States have been reported to the Centers for Disease Control and Prevention
(“CDC”) and over 206,000 Americans have died, including over 2,000 Minnesotans.2
There is currently no cure and no vaccine. Id. Exs. 1, 5. In response to this public‐health
crisis, the President declared a national emergency on March 13, 2020 and later

2

See Centers for Disease Control and Prevention, at
www.cdc.gov/coronavirus/2019‐ncov/cases‐updates/cases‐in‐us.html (last visited Oct. 2,
2020).
-3-

APPENDIX 3

CASE 0:20-cv-01688-PJS-ECW Doc. 51 Filed 10/02/20 Page 4 of 35

approved major disaster declarations in all 50 states—the first time a president had
done so in the history of the United States. Id. Exs. 9, 10.
B. Face Coverings
Federal and state health officials recommend face coverings to slow the spread of
COVID‐19. According to CDC officials, “the more individuals wear cloth face
coverings in public places where they may be close together, the more the entire
community is protected.” Id. Ex. 12. Recent studies have found that face‐covering
mandates are associated with large declines in the growth rate of COVID‐19 infections
and fatalities. Id. Exs. 21, 22, 24. One study estimated that a nationwide mandate
would significantly benefit the economy by substituting a mask mandate for renewed
lockdowns that would subtract nearly 5% from GDP. Id. Ex. 24. Projections by the
University of Washington indicate that universal use of face coverings would save
thousands of lives in Minnesota. Id. Ex. 23.
It is important to stress that plaintiffs do not deny any of this. Plaintiffs do not
deny the existence of COVID‐19, or that it is a dangerous disease, or that it is easily
spread (including by people who do not know that they are infected), or that face
coverings slow its spread and thus save lives. To the contrary, plaintiffs emphasize that
“[n]o one in this case is saying that mask wearing isn’t a good thing.” ECF No. 1 at 1–2.

-4-

APPENDIX 4

CASE 0:20-cv-01688-PJS-ECW Doc. 51 Filed 10/02/20 Page 5 of 35

C. Executive Order 20‐81
On March 13, 2020, the same day that the President declared a national
emergency, Governor Walz declared a peacetime emergency in Minnesota. See
Executive Order 20‐01; Minn. Stat. § 12.31, subd. 2(a). Among the actions that Governor
Walz has taken pursuant to his emergency powers is issuing Executive Order 20‐81
(“EO 20‐81”), which requires Minnesotans to wear face coverings while present in
indoor businesses and public indoor spaces and while waiting outdoors to enter an
indoor business or public indoor space. Am. Compl. Ex. 1 [hereinafter “EO 20‐81”]
¶ 9(a). Certain individuals are exempt from the mandate, including individuals with
physical or mental conditions that make it unreasonable for them to wear a face
covering, workers for whom a face covering would create a job hazard, and children
under the age of six. EO 20‐81 ¶ 8. An individual who willfully violates EO 20‐81 is
guilty of a petty misdemeanor. EO 20‐81 ¶ 20(a).
II. ANALYSIS
A. Standard of Review
In reviewing a motion for a preliminary injunction, a court must consider four
factors: (1) the movant’s likelihood of success on the merits; (2) the threat of irreparable
harm to the movant if the injunction is not granted; (3) the balance between that harm
and the harm that granting the injunction will inflict on the other parties; and (4) the

-5-

APPENDIX 5

CASE 0:20-cv-01688-PJS-ECW Doc. 51 Filed 10/02/20 Page 6 of 35

public interest. Dataphase Sys., Inc. v. C L Sys., Inc., 640 F.2d 109, 114 (8th Cir. 1981) (en
banc). “A preliminary injunction is an extraordinary remedy, and the burden of
establishing the propriety of an injunction is on the movant.” Watkins Inc. v. Lewis, 346
F.3d 841, 844 (8th Cir. 2003) (internal citation omitted).
B. Likelihood of Success
The main thrust of plaintiffs’ amended complaint is that it is impossible for
anyone to enter an indoor public setting in Minnesota without committing a crime. On
the one hand, EO 20‐81 makes it unlawful not to wear a face covering in an indoor
public setting. On the other hand, according to plaintiffs, a Minnesota statute makes it
unlawful to wear a face covering in any public place, including any indoor public
setting. Specifically, Minn. Stat. § 609.735 provides:
A person whose identity is concealed by the person in
a public place by means of a robe, mask, or other disguise,
unless based on religious beliefs, or incidental to
amusement, entertainment, protection from weather, or
medical treatment, is guilty of a misdemeanor.
Because EO 20‐81 and § 609.735 are in direct conflict, plaintiffs argue, they cannot
enter an indoor public place—such as a polling place, or a meeting hall, or even a
grocery store—without committing a crime. As a result, plaintiffs contend that they are
chilled from engaging in political activities that are protected by the First Amendment,

-6-

APPENDIX 6

CASE 0:20-cv-01688-PJS-ECW Doc. 51 Filed 10/02/20 Page 7 of 35

such as voting in person, campaigning in public, and associating with others in indoor
settings.
Plaintiffs also allege that EO 20‐81, in combination with guidance from the
Secretary of State concerning how to implement EO 20‐81 at polling places, violates the
Elections Clause in Article I, § 4 of the United States Constitution. Plaintiffs further
allege that EO 20‐81, standing alone, violates the First Amendment and various
provisions of the Minnesota Constitution. Before addressing the merits of plaintiffs’
claims, the Court must address a number of thorny jurisdictional issues.
1. Jurisdictional Issues
a. Standing
Defendants argue that plaintiffs are unlikely to prevail in this litigation because
they lack standing. “Standing to sue is a doctrine rooted in the traditional
understanding of a case or controversy.” Spokeo, Inc. v. Robins, 136 S. Ct. 1540, 1547
(2016). Standing consists of three elements: “[(1)] an injury in fact, (2) that is fairly
traceable to the challenged conduct of the defendant, and (3) that is likely to be
redressed by a favorable judicial decision.” Id. “To establish injury in fact, a plaintiff
must show that he or she suffered ‘an invasion of a legally protected interest’ that is
‘concrete and particularized’ and ‘actual or imminent, not conjectural or hypothetical.’”
Id. at 1548 (quoting Lujan v. Defs. of Wildlife, 504 U.S. 555, 560 (1992)). The plaintiff bears

-7-

APPENDIX 7

CASE 0:20-cv-01688-PJS-ECW Doc. 51 Filed 10/02/20 Page 8 of 35

the burden of establishing standing and must clearly allege facts demonstrating each
element. Id. at 1547; Susan B. Anthony List v. Driehaus, 573 U.S. 149, 158 (2014).
i. Ramsey Defendants
Under Minnesota law, county attorneys “shall . . . prosecute felonies . . . and, to
the extent prescribed by law, gross misdemeanors, misdemeanors, petty misdemeanors,
and violations of municipal ordinances, charter provisions and rules or regulations[.]”
Minn. Stat. § 388.051, subd. 1(3); see also Minn. Stat. § 484.87, subd. 3 (“Except as
provided in subdivision 2 and as otherwise provided by law, violations of state law that
are petty misdemeanors or misdemeanors must be prosecuted by the attorney of the
statutory or home rule charter city where the violation is alleged to have occurred, if the
city has a population greater than 600.”). As noted, a violation of § 609.735 is a
misdemeanor, and a violation of EO 20‐81 is a petty misdemeanor.
The Ramsey defendants argue that, because state law does not give the Ramsey
County Attorney authority to prosecute these offenses, plaintiffs’ alleged injuries are
not traceable to him, nor would plaintiffs’ injuries be redressed by a favorable judicial
decision on any claims against him.3 See Dig. Recognition Network, Inc. v. Hutchinson, 803
3

The Hennepin defendants do not argue that the Hennepin County Attorney
lacks authority to prosecute non‐felony offenses. At oral argument, defendants
explained that, unlike Ramsey County, Hennepin County contains unincorporated
areas in which there is no city attorney available to prosecute non‐felony offenses, and
accordingly the Hennepin County Attorney has some authority to prosecute such
(continued...)
-8-

APPENDIX 8

CASE 0:20-cv-01688-PJS-ECW Doc. 51 Filed 10/02/20 Page 9 of 35

F.3d 952, 957–58 (8th Cir. 2015) (“When a plaintiff brings a pre‐enforcement challenge to
the constitutionality of a particular statutory provision, the causation element of
standing requires the named defendants to possess authority to enforce the complained‐
of provision.” (cleaned up)).
In response, plaintiffs do not point to any provision of state law granting the
Ramsey County Attorney authority to prosecute misdemeanors under § 609.735 or
petty misdemeanors under EO 20‐81. Instead, plaintiffs cite State v. Lemmer, 736 N.W.2d
650 (Minn. 2007), which states that “the county attorney acts as the attorney for the state
in all criminal matters within the county and has no authority to act in civil cases, such
as implied consent proceedings, in which the state is a party.” Id. at 660. But Lemmer
had nothing to do with the allocation of prosecutorial authority between county and
city attorneys; indeed, later in the same paragraph, Lemmer cites § 388.051 and notes that
county attorneys’ duties “include prosecuting felonies, and to the extent prescribed by law,
gross misdemeanors, misdemeanors, and petty misdemeanors.” Id. (emphasis added).
At oral argument, plaintiffs pointed out that county attorneys have civil‐
enforcement powers under EO 20‐81. But the provision that plaintiffs cited addresses
the liability of businesses, not individuals. EO 20‐81 ¶ 20(b)(ii). Nowhere in plaintiffs’
amended complaint or briefs does any plaintiff contend that the plaintiff is a business or
3

(...continued)
offenses.
-9-

APPENDIX 9

CASE 0:20-cv-01688-PJS-ECW Doc. 51 Filed 10/02/20 Page 10 of 35

otherwise subject to EO 20‐81’s business provisions. Because plaintiffs have failed to
meet their burden to show traceability and redressability as against the Ramsey County
Attorney, the Court finds that plaintiffs are unlikely to prevail on any claims against
him. See Dig. Recognition Network, Inc., 803 F.3d at 958 (“The redressability prong is not
met when a plaintiff seeks relief against a defendant with no power to enforce a
challenged statute.” (citation and quotation marks omitted)).
With respect to the Ramsey County Auditor, the Ramsey defendants similarly
argue that there is no law giving him the authority to prosecute offenses under either
§ 609.735 or EO 20‐81. Plaintiffs point to a July 22 guidance memorandum issued by the
Secretary of State to county auditors and election officials concerning the impact of
EO 20‐81 on voting in Minnesota. Am. Compl. Ex. 2. The Secretary of State issued the
guidance in response to questions concerning how to handle compliance with EO 20‐81
in polling places. Am. Compl. Ex. 2. The guidance recommends that, if a voter enters a
polling place without a face covering, (1) an election official should inform the voter of
the face‐covering requirement and offer the voter a disposable mask; (2) if the voter
refuses to wear a face covering, the voter should be offered the opportunity for outdoor
curbside voting; and (3) if the voter insists on voting inside the polling place without a
face covering, the voter should be permitted to do so after again being informed that

-10-

APPENDIX 10

CASE 0:20-cv-01688-PJS-ECW Doc. 51 Filed 10/02/20 Page 11 of 35

face coverings are required and that the voter’s refusal to comply with that requirement
will be recorded and “reported to the appropriate authorities.” Am. Compl. Ex. 2.
This guidance was issued to county auditors and election officials, but it does not
purport to be binding; rather, it is characterized as “guidance that we hope is helpful as
you work with your municipalities on polling place procedures.” Am. Compl. Ex. 2.
Nor does this guidance vest county auditors with any authority to prosecute violations
of EO 20‐81; instead, it simply recommends that the auditors advise election officials to
report any violations to the “appropriate authorities.” Am. Compl. Ex. 2. It therefore
appears that plaintiffs do not have standing to pursue any claims against the Ramsey
County Auditor.4
ii. State and Hennepin Defendants
The State and Hennepin defendants argue that plaintiffs do not have standing
because they have failed to plead a particularized injury; instead, the injury that
plaintiffs identify (being subject to the allegedly conflicting dictates of § 609.735 and EO
20‐81) is suffered by all Minnesotans. The cases on which defendants rely, however, do
not hold that if a government action violates the rights of all citizens, no citizen has

4

The Hennepin defendants did not raise this argument with respect to the
Hennepin County Auditor, and the Court does not know whether the authority of the
Hennepin County Auditor differs from the authority of the Ramsey County Auditor. If
the two auditors are similarly situated, plaintiffs would not appear to have standing to
pursue claims against the Hennepin County Auditor.
-11-

APPENDIX 11

CASE 0:20-cv-01688-PJS-ECW Doc. 51 Filed 10/02/20 Page 12 of 35

standing to challenge that action in federal court. Instead, those cases involve attempts
by a plaintiff to vindicate a generalized, abstract interest in the proper application of the
law. See, e.g., Lance v. Coffman, 549 U.S. 437, 441–42 (2007) (plaintiffs lacked standing to
challenge judicial redistricting because “[t]he only injury plaintiffs allege is that the
law—specifically the Elections Clause—has not been followed”); see also FEC v. Akins,
524 U.S. 11, 23 (1998) (“The kind of judicial language to which the FEC points, however,
invariably appears in cases where the harm at issue is not only widely shared, but is
also of an abstract and indefinite nature—for example, harm to the ‘common concern
for obedience to law.’” (quoting L. Singer & Sons v. Union Pac. R., 311 U.S. 295, 303
(1940))).
Here, by contrast, plaintiffs allege an injury personal to them. Specifically, they
allege that they want to engage in political activities in indoor public settings but are
chilled from doing so. This is a sufficiently individual and particularized injury, at least
insofar as plaintiffs’ claims rest on the alleged conflict between § 609.735 and EO 20‐81.
See Susan B. Anthony List, 573 U.S. at 159 (“a plaintiff satisfies the injury‐in‐fact
requirement where he alleges an intention to engage in a course of conduct arguably
affected with a constitutional interest, but proscribed by a statute, and there exists a
credible threat of prosecution thereunder” (citation and quotation marks omitted));
Akins, 524 U.S. at 24 (“Often the fact that an interest is abstract and the fact that it is

-12-

APPENDIX 12

CASE 0:20-cv-01688-PJS-ECW Doc. 51 Filed 10/02/20 Page 13 of 35

widely shared go hand in hand. But their association is not invariable, and where a
harm is concrete, though widely shared, the Court has found ‘injury in fact.’”).
With respect to plaintiffs’ standalone challenges to the validity of EO 20‐81,
however, their allegations appear insufficient to establish an injury in fact. The
amended complaint alleges that plaintiffs want the freedom to choose whether to wear
a mask, Am. Compl. ¶¶ 3, 30, that they intend to vote and engage in other political
activities either wearing or not wearing a mask, Am. Compl. ¶ 18, and that they have “a
right to protect themselves by wearing a mask and a right to politically protest the
government’s pandemic response by not wearing a mask,” Am. Compl. ¶ 4. As an
aside, the Court notes that plaintiffs’ claims are inconsistent with some of the major
premises of their lawsuit. Plaintiffs strenuously argue that § 609.735 makes it unlawful
to wear a mask in a public place, and that wearing a mask to slow the spread of COVID‐
19 does not fit within the “medical treatment” exception to the statute. Plaintiffs further
argue that EO‐81 is invalid because an executive order cannot conflict with a valid
statute. If plaintiffs are correct, they do not have the right to “choose” whether or not to
wear a mask in a public place; § 609.735 bars them from doing so.
In any event, the amended complaint stops short of alleging that any individual
plaintiff wants or intends to violate EO 20‐81 by not wearing a face covering when
EO 20‐81 would require them to do so. Again, plaintiffs bear the burden of clearly

-13-

APPENDIX 13

CASE 0:20-cv-01688-PJS-ECW Doc. 51 Filed 10/02/20 Page 14 of 35

alleging facts demonstrating each element of standing, Spokeo, 136 S. Ct. at 1547, and
“[e]ach plaintiff must establish standing for each form of relief sought,” Miller v.
Thurston, 967 F.3d 727, 734 (8th Cir. 2020). As no plaintiff has clearly “allege[d] an
intention to engage in a course of conduct arguably . . . proscribed by” EO 20‐81, Susan
B. Anthony List, 573 U.S. at 159 (citation and quotation marks omitted), no plaintiff
appears to have standing to challenge the validity of EO 20‐81 in its own right.5
The State and Hennepin defendants also argue that plaintiffs’ alleged future
injuries are too speculative to establish standing. See Clapper v. Amnesty Int’l, USA, 568
U.S. 398, 409 (2013) (“we have repeatedly reiterated that threatened injury must be
certainly impending to constitute injury in fact, and that allegations of possible future
injury are not sufficient” (cleaned up)). Relatedly, the State and Hennepin defendants
argue that plaintiffs face no risk of prosecution from them and therefore plaintiffs’
injuries are not “fairly traceable” to them.
With respect to the Secretary of State: The only alleged connection between the
Secretary of State and plaintiffs’ alleged injury is the July 22 guidance discussed above.
The guidance, however, is simply that—guidance—and plaintiffs do not point to any
provision in any law granting the Secretary of State any authority to prosecute
5

This argument would appear to preclude plaintiffs from establishing standing
with respect to such claims against the Ramsey defendants as well. See Dunbar v. Wells
Fargo Bank, N.A., 709 F.3d 1254, 1256 n.4 (8th Cir. 2013) (federal courts have an
independent obligation to determine whether subject‐matter jurisdiction exists).
-14-

APPENDIX 14

CASE 0:20-cv-01688-PJS-ECW Doc. 51 Filed 10/02/20 Page 15 of 35

violations of either § 609.735 or EO 20‐81. It therefore appears that plaintiffs lack
standing to pursue claims against the Secretary of State.6
With respect to the remaining State and Hennepin defendants: “The Supreme
Court has repeatedly found that plaintiffs have standing to bring pre‐enforcement First
Amendment challenges to criminal statutes, even when those statutes have never been
enforced.” 281 Care Comm. v. Arneson, 638 F.3d 621, 628 (8th Cir. 2011). “It is only
evidence—via official policy or a long history of disuse—that authorities actually reject
a statute that undermines its chilling effect.” Id.; see also UFCW Int’l Union v. IBP, Inc.,
857 F.2d 422, 428 (8th Cir. 1988) (“Where plaintiffs allege an intention to engage in a
6

For similar reasons, the Secretary of State is likely entitled to Eleventh
Amendment immunity. See Ex parte Young, 209 U.S. 123, 157 (1908) (for the Ex parte
Young exception to Eleventh Amendment immunity to apply, the state official must
have “some connection” to the challenged law); see also Calzone v. Hawley, 866 F.3d 866,
869 (8th Cir. 2017) (noting that, in cases against state officials, the standing and Eleventh
Amendment issues are similar).
The Court does not read Calzone or Missouri Protection & Advocacy Services, Inc. v.
Carnahan, 499 F.3d 803 (8th Cir. 2007) to the contrary. In Calzone, the Eighth Circuit
found that the superintendent of the state highway patrol had a sufficient connection to
an allegedly unconstitutional search policy because she had promulgated the policy
pursuant to her authority to enforce a state highway regulation. Calzone, 866 F.3d
at 870. In Missouri Protection & Advocacy Services, the Eighth Circuit held that the
Missouri secretary of state had a sufficient connection to the enforcement of a law
disqualifying certain persons from voting partly because state law obligated the
secretary of state to send local election authorities the names of persons ineligible to
vote under the law. 499 F.3d at 807. Here, by contrast, the Secretary of State simply
provided guidance in response to questions from local election officials concerning the
effect of EO 20‐81 on polling places; there is no law formally connecting the Secretary to
the enforcement of EO 20‐81.
-15-

APPENDIX 15

CASE 0:20-cv-01688-PJS-ECW Doc. 51 Filed 10/02/20 Page 16 of 35

course of conduct arguably affected with a constitutional interest which is clearly
proscribed by statute, courts have found standing to challenge the statute, even absent a
specific threat of enforcement.”).
It is true that EO 20‐81 sets forth the state’s official policy that wearing a face
covering in compliance with EO 20‐81 does not violate § 609.735. EO 20‐81 ¶ 19. There
is therefore no credible threat that the Governor or the Attorney General will instigate
prosecution against an individual under § 609.735 for complying with EO 20‐81.7 But the
reverse is not true—that is, neither the Governor nor the Attorney General has an
official policy against prosecuting individuals for violating EO 20‐81. Nor have the
Hennepin defendants claimed that they have adopted an official policy not to prosecute
violations of EO 20‐81 or § 609.735.8 It therefore appears that plaintiffs’ alleged fear of
facing prosecution for either wearing or not wearing a mask is sufficient under 281 Care
Committee to establish standing as against these defendants.
b. Eleventh Amendment
i. Ex parte Young

7

As discussed below, Minn. Stat. § 8.01 grants the Governor and the Attorney
General some discretionary authority to be involved in criminal prosecutions.
8

As noted below, there appear to be no reported cases of prosecutions under
either § 609.735 or its predecessor since the latter was first enacted in 1923. Defendants
do not argue that this long history of lack of prosecution deprives plaintiffs of standing,
however.
-16-

APPENDIX 16

CASE 0:20-cv-01688-PJS-ECW Doc. 51 Filed 10/02/20 Page 17 of 35

The State defendants next argue that they are entitled to Eleventh Amendment
immunity. Under the Eleventh Amendment, “an unconsenting State is immune from
suits brought in federal courts by her own citizens as well as by citizens of another
state.” Pennhurst State Sch. & Hosp. v. Halderman, 465 U.S. 89, 100 (1984) (citation and
quotation marks omitted). The Supreme Court recognized an exception to this
immunity in Ex parte Young, 209 U.S. 123 (1908). “Under the Ex Parte Young doctrine, a
private party can sue a state officer in his official capacity to enjoin a prospective action
that would violate federal law.” 281 Care Comm., 638 F.3d at 632. For this exception to
apply, the state official must have “some connection” with the enforcement of the
allegedly unconstitutional law; otherwise, the lawsuit is “merely making [the official] a
party as a representative of the state, and thereby attempting to make the state a party.”
Ex parte Young, 209 U.S. at 157.
In 281 Care Committee, the Eighth Circuit held that the Minnesota Attorney
General had a sufficient connection with the enforcement of a challenged state statute
based in part on the fact that, under Minn. Stat. § 8.01, a county attorney may request
that the Attorney General take over a criminal prosecution. 281 Care Comm., 638 F.3d
at 632–33; see also Reprod. Health Servs. of Planned Parenthood v. Nixon, 428 F.3d 1139, 1145
(8th Cir. 2005) (holding that the Missouri attorney general was potentially a proper
defendant because Missouri law permits the governor to direct him to aid prosecutors

-17-

APPENDIX 17

CASE 0:20-cv-01688-PJS-ECW Doc. 51 Filed 10/02/20 Page 18 of 35

and trial courts to direct him to sign indictments). It therefore appears that plaintiffs’
claims against the Attorney General may fall within Ex parte Young. Similarly, § 8.01
grants the Governor the authority to request the Attorney General to “prosecute any
person charged with an indictable offense,” indicating that claims against the Governor
may also fall within Ex parte Young.
The Court recognizes that, in a second appeal, the Eighth Circuit in 281 Care
Committee held that the Minnesota Attorney General was immune under the Eleventh
Amendment. 281 Care Comm. v. Arneson, 766 F.3d 774, 796–97 (8th Cir. 2014). By that
stage of the proceedings, however, a deputy attorney general had filed an affidavit
attesting that the Attorney General’s Office had never initiated a prosecution under the
challenged law, that the office was not aware of any county attorney who had asked the
office to do so, that the office would decline any such request, and that the office had no
intention of undertaking any enforcement activities. Id. On the basis of that affidavit,
the Eighth Circuit held that the Attorney General was immune from suit under the
Eleventh Amendment. Id. at 797. In this case, however, neither the Governor nor the
Attorney General has introduced evidence that he does not intend to use his authority
under § 8.01.
ii. Pennhurst

-18-

APPENDIX 18

CASE 0:20-cv-01688-PJS-ECW Doc. 51 Filed 10/02/20 Page 19 of 35

Finally, the State defendants argue that, under the Eleventh Amendment and
Pennhurst State School & Hospital v. Halderman, 465 U.S. 89 (1984), the Court lacks
jurisdiction to resolve plaintiffs’ claims that EO 20‐81 violates the Minnesota
Constitution. The Court agrees.
As the Supreme Court explained in Pennhurst, the Ex parte Young exception to
Eleventh Amendment immunity is premised on the theory that “sovereign immunity
does not apply because an official who acts unconstitutionally is ‘stripped of his official
or representative character.’” Id. at 104 (quoting Ex parte Young, 209 U.S. at 160). This is
somewhat of a legal fiction, but it is necessary to vindicate federal rights and ensure the
supremacy of federal law. Id. at 105. That necessity does not exist in cases in which a
state official is alleged to be acting in violation of state law. “On the contrary, it is
difficult to think of a greater intrusion on state sovereignty than when a federal court
instructs state officials on how to conform their conduct to state law.” Id. at 106. The Ex
parte Young exception to Eleventh Amendment immunity therefore does not apply to
plaintiffs’ claims that Governor Walz and the other State defendants have violated
Minnesota law. See Elim Romanian Pentecostal Church v. Pritzker, 962 F.3d 341, 345–46 (7th
Cir. 2020) (holding that Pennhurst barred plaintiffs’ claim that COVID‐19 restrictions on
religious gatherings violated state law); see also Bacon v. Neer, 631 F.3d 875, 880 (8th Cir.
2011) (explaining that a federal court would have no jurisdiction to enjoin the

-19-

APPENDIX 19

CASE 0:20-cv-01688-PJS-ECW Doc. 51 Filed 10/02/20 Page 20 of 35

defendants from enforcing state law even if their construction of state law was based on
an erroneous interpretation of federal law).
Plaintiffs’ only argument regarding Pennhurst seems to be that, although the
Court cannot enjoin state officials from violating state law, the Court can decide
whether state officials have violated state law in the course of litigating the federal
constitutional claims. But whether EO 20‐81 violates the Minnesota Constitution is not
relevant to the merits of plaintiffs’ federal claims. Moreover, the fact that the Court may
have jurisdiction over plaintiffs’ federal claims does not establish an exception to
Eleventh Amendment immunity; the Court still may not “intru[de] on state
sovereignty” by “instruct[ing] state officials on how to conform their conduct to state
law.” Pennhurst, 465 U.S. at 106. Finally, the doctrine of constitutional avoidance does
not override the Eleventh Amendment. See id. at 120–23.
To summarize, then, it appears that the Court likely has jurisdiction only over
plaintiffs’ federal claims against the Governor, the Attorney General, and the Hennepin
defendants, and only insofar as those claims rest on plaintiffs’ allegation that EO 20‐81
conflicts with § 609.735.

-20-

APPENDIX 20

CASE 0:20-cv-01688-PJS-ECW Doc. 51 Filed 10/02/20 Page 21 of 35

2. Merits
a. Section 609.735 and EO 20‐81
As noted, plaintiffs’ main claim is that they are caught in an impossible situation:
EO 20‐81 makes it a crime not to wear face coverings in indoor public settings, while
Minn. Stat. § 609.735 makes it a crime to wear face coverings in public places (with
exceptions that do not apply to this case9). Defendants argue that EO 20‐81 and
§ 609.735 do not, in fact, conflict because (1) § 609.735 prohibits concealing one’s identity
by means of a “disguise,” and the face coverings required by EO 20‐81 neither conceal
one’s identity nor constitute a “disguise”; and (2) § 609.735 requires proof of an intent to
conceal one’s identity, and someone who wears a mask to comply with EO 20‐81 is not
wearing a mask to conceal his or her identity.
These issues have not been addressed by the Minnesota Supreme Court, and
therefore this Court must attempt to predict “what that court would probably hold
were it to decide the issue[s].” Ventura v. Titan Sports, Inc., 65 F.3d 725, 729 (8th Cir.
1995). For a number of reasons, this Court believes that the Minnesota Supreme Court
would hold that § 609.735 is violated only when someone wears a face covering for the
purpose of concealing his or her identity.

9

Defendants do not argue that wearing a face mask to slow the spread of COVID‐
19 fits within the “medical treatment” exception to § 609.735.
-21-

APPENDIX 21

CASE 0:20-cv-01688-PJS-ECW Doc. 51 Filed 10/02/20 Page 22 of 35

The original version of the statute was enacted in 1923.10 See 1923 Minn. Laws ch.
160, § 1. Like similar laws enacted during the same era, the law grew out of concerns
over the rise of the Ku Klux Klan. See Wayne R. Allen, Note, Klan, Cloth & Constitution:
Anti‐Mask Laws & the First Amendment, 25 Ga. L. Rev. 819, 821–22 & n.17 (1991). The
original version of the statute clearly required that the perpetrator act with the intent to
conceal his or her identity: “It shall be unlawful for any person . . . to appear on any
street or highway, or in other public places or any place open to view by the general
public, with his face or person partially or completely concealed by means of a mask or
other regalia or paraphernalia, with intent thereby to conceal the identity of such person.”
Minn. Stat. § 615.16 (1941) (emphasis added). The original version of the statute also
established a presumption: “The wearing of any such mask, regalia or paraphernalia by
any person on any street or highway or in other public places or any place open to view
by the general public, shall be presumptive evidence of wearing the same with intent to
conceal the identity of such person[.]” Id.
The statute was amended in 1963. See 1963 Minn. Laws ch. 753, § 609.735. The
purpose of the amendment was to delete the presumption in light of State v. Higgin, 99

10

The statute was originally codified at Minn. Stat. § 10300 (1923) and later at
Minn. Stat. § 615.16 (1941).
-22-

APPENDIX 22

CASE 0:20-cv-01688-PJS-ECW Doc. 51 Filed 10/02/20 Page 23 of 35

N.W.2d 902 (Minn. 1959).11 Although the remainder of the statute was rewritten—and
although the rewritten version did not contain an explicit intent requirement—the
Advisory Committee Comment explained that the substance of the new version was
intended to be the same as the substance of the original version (save for the deletion of
the presumption). See Minn. Stat. § 609.735, 1963 Advisory Comm. Cmt. (“This contains
the substance of Minn. St. § 615.16 which will be superseded. The presumption
contained in the latter section has not been retained in view of State v. Higgin, 1960, 257
Minn. 46, 99 N.W.2d 902.”). Minnesota appears to regard such commentary as
authoritative. See State v. Lopez, 908 N.W.2d 334, 336 n.3 (Minn. 2018) (citing State v.
Vredenberg, 264 N.W.2d 406, 407 (Minn. 1978) (per curiam) as an example of a case in
which there was “evidence that the Legislature did not intend to change the law”);
Vredenberg, 264 at 407 (relying on an Advisory Committee Comment stating that the
amended statute contained the substance of the earlier statute to find no change in the
law).
In addition to the statutory history, the language of § 609.735 also suggests that
intent to conceal is an element of the offense. The statute makes it unlawful to conceal
one’s identity in a particular way—“by means of a robe, mask, or other disguise.” The

11

Higgin held that, when specific intent is an element of an offense, a jury can
never be instructed that a given set of facts gives rise to a presumption of such intent.
Higgin, 99 N.W.2d at 907.
-23-

APPENDIX 23

CASE 0:20-cv-01688-PJS-ECW Doc. 51 Filed 10/02/20 Page 24 of 35

word “other” in the phrase “robe, mask, or other disguise” indicates that the statute
encompasses only the use of a robe or mask as a “disguise.” In other words, the statute
does not make it unlawful to wear robes and masks; the statute makes it unlawful to
wear disguises. “Disguise,” in turn, connotes something worn for the purpose of
concealing one’s identity. Notably, three of the five exceptions to the statute—for
religious beliefs, amusement, and entertainment—cover cases in which people could be
wearing face coverings (such as Halloween costumes) with the intent to conceal their
identities.
It is true that, if § 609.735 is not violated unless a person acts with intent to
conceal his or her identity, then the exceptions for protection from weather and for
medical treatment are redundant. But “[r]edundancy is not a silver bullet,” and
“[s]ometimes the better overall reading of the statute contains some redundancy.”
Rimini St., Inc. v. Oracle USA, Inc., 139 S. Ct. 873, 881 (2019).
Finally, the Court believes that the Minnesota Supreme Court would interpret
§ 609.735 to require intent to conceal one’s identity because, without such a
requirement, the statute would lead to absurd results. See Am. Fam. Ins. Grp. v. Schroedl,
616 N.W.2d 273, 278 (Minn. 2000) (“courts should construe a statute to avoid absurd
results and unjust consequences”). A construction worker could not wear a dust mask
while remodeling a public space, a government official could not wear a hazmat suit

-24-

APPENDIX 24

CASE 0:20-cv-01688-PJS-ECW Doc. 51 Filed 10/02/20 Page 25 of 35

while cleaning up a chemical spill in a public place, an emergency medical technician
could not wear a surgical mask while tending to a person injured on a public road, and
a nail artist could not wear a mask while giving a manicure. The Minnesota Legislature
could not possibly have intended to criminalize such a broad range of commonplace
conduct. Cf. In re Welfare of C.R.M., 611 N.W.2d 802, 809 (Minn. 2000) (“great care is
taken to avoid interpreting statutes as eliminating mens rea where doing so criminalizes
a broad range of what would otherwise be innocent conduct”).
Indeed, as plaintiffs interpret the statute, § 609.735 not only bars Governor Walz
from ordering Minnesotans to wear face coverings in public places, but § 609.735 bars
Minnesotans from voluntarily wearing face coverings in public places if they are doing
so to slow the spread of COVID‐19. It is very difficult to believe that the Minnesota
Supreme Court would interpret § 609.735 to forbid a Minnesotan from wearing a face
mask in a public place if her reason for doing so was to protect herself from being
infected by a communicable disease or to prevent herself from infecting another person.
Needless to say, such an interpretation of § 609.735 would raise significant
constitutional concerns. Cf. Jacobson v. Massachusetts, 197 U.S. 11, 38–39 (1905)
(upholding a mandatory‐vaccination provision, but suggesting that the result would be
different if the plaintiff could have shown that vaccination “would seriously impair his
health, or probably cause his death”).

-25-

APPENDIX 25

CASE 0:20-cv-01688-PJS-ECW Doc. 51 Filed 10/02/20 Page 26 of 35

This is not to say that plaintiffs’ position that § 609.735 conflicts with EO 20‐81 is
frivolous.12 But plaintiffs’ reply brief did not bother to respond to defendants’
arguments concerning the proper interpretation of § 609.735; in fact, plaintiffs’ reply
brief said nothing at all about their centerpiece claim that § 609.735 conflicts with EO 20‐
81. This failure is particularly problematic in light of the fact that there are no
Minnesota cases construing § 609.735. Under all of the circumstances, the Court finds
that plaintiffs have not met their burden to show a “fair chance of prevailing” on their
argument that EO 20‐81 conflicts with § 609.735. See Powell v. Noble, 798 F.3d 690, 698
(8th Cir. 2015) (citation and quotation marks omitted).
b. Challenges to the Validity of EO 20‐81
As noted, because plaintiffs have not clearly alleged that they intend to enter
public indoor spaces without face coverings, they likely lack standing to pursue their
challenges to the validity of EO 20‐81 under the Elections Clause and the First
Amendment. Even if they had standing, however, both of their challenges lack merit.
i. Elections Clause
The Elections Clause provides as follows:
The Times, Places and Manner of holding Elections for
Senators and Representatives, shall be prescribed in each
12

For example, Minn. Stat. § 609.02, subd. 9, undermines defendants’ argument
regarding intent. But no party to this lawsuit has even cited § 609.02, subd. 9, much less
addressed its impact on the issues now before the Court.
-26-

APPENDIX 26

CASE 0:20-cv-01688-PJS-ECW Doc. 51 Filed 10/02/20 Page 27 of 35

State by the Legislature thereof; but the Congress may at any
time by Law make or alter such Regulations, except as to the
Places of chusing Senators.
U.S. Const. Art. I, § 4, cl. 1.
Plaintiffs’ briefs and amended complaint seem to contend that EO 20‐81 is a law
regarding the “Manner of holding Elections” and violates the Elections Clause because
it was not enacted by the “Legislature.” After the Court pointed out at oral argument
that EO 20‐81 is a generally applicable provision that does not on its face govern
elections, plaintiffs conceded that EO 20‐81 does not, by itself, contravene the Elections
Clause. Plaintiffs’ claim now seems to be that EO 20‐81 in combination with the Secretary
of State’s guidance contravenes the Elections Clause.
The Court disagrees. Plaintiffs have not cited, and the Court has not found, a
single case holding that a generally applicable provision that incidentally applies at a
polling place constitutes a regulation of the “Times, Places and Manner of holding
Elections.” Cf. Cook v. Gralike, 531 U.S. 510, 523–24 (2001) (holding that the challenged
law “bears no relation to the ‘manner’ of elections as we understand it, for in our
commonsense view that term encompasses matters like ‘notices, registration,
supervision of voting, protection of voters, prevention of fraud and corrupt practices,
counting of votes, duties of inspectors and canvassers, and making and publication of
election returns’” (quoting Smiley v. Holm, 285 U.S. 355, 366 (1932))).

-27-

APPENDIX 27

CASE 0:20-cv-01688-PJS-ECW Doc. 51 Filed 10/02/20 Page 28 of 35

The fact that the Secretary of State provided advice as to how to implement EO
20‐81 at polling places does not somehow turn EO 20‐81 into a law regarding the
“Manner of holding elections.” As noted, the Secretary of State’s memorandum is not a
law and does not purport to be binding. The Court rejects the notion that the state
official charged with overseeing elections cannot provide guidance concerning how to
implement a generally applicable provision at polling places without somehow running
afoul of the Elections Clause. If that were the case, election officials would be barred
from providing advice on a whole range of subjects, from how to handle disruptive
voters to how to accommodate voters with disabilities. Plaintiffs’ claim under the
Elections Clause is plainly meritless.
ii. First Amendment
Finally, plaintiffs allege that EO 20‐81 violates the First Amendment because it
does not permit them to enter indoor public spaces without face coverings as a way to
protest the requirement that they wear face coverings when they enter indoor public
spaces. This claim is meritless for two reasons: First, EO 20‐81 does not implicate the
First Amendment at all. Second, even if EO 20‐81 did implicate the First Amendment,
the order would easily pass muster under both United States v. O’Brien, 391 U.S. 367
(1968), and Jacobson v. Massachusetts, 197 U.S. 11 (1905).

-28-

APPENDIX 28

CASE 0:20-cv-01688-PJS-ECW Doc. 51 Filed 10/02/20 Page 29 of 35

The Supreme Court has recognized that expressive conduct may be entitled to a
measure of First Amendment protection. Texas v. Johnson, 491 U.S. 397, 404 (1989) (flag
burning). In general, courts evaluate the validity of a law that regulates expressive
conduct under the standard articulated in O’Brien. This does not mean, however, that
every law regulating conduct is subject to scrutiny under O’Brien whenever an
individual decides to violate the law for the purpose of sending a message.
If combining speech and conduct were enough to create
expressive conduct, a regulated party could always
transform conduct into “speech” simply by talking about it.
For instance, if an individual announces that he intends to
express his disapproval of the Internal Revenue Service by
refusing to pay his income taxes, we would have to apply
O’Brien to determine whether the Tax Code violates the First
Amendment. Neither O’Brien nor its progeny supports such
a result.
Rumsfeld v. F. for Acad. & Inst’l Rts., Inc., 547 U.S. 47, 66 (2006) (“FAIR”) (rejecting First
Amendment challenge to provision requiring institutions of higher learning to permit
military recruiters access to students on the same basis as other recruiters or forfeit
certain federal funds).
To merit First Amendment protection under O’Brien, then, the conduct regulated
by the challenged law must be “inherently expressive.” Id. Here, as in FAIR, the
conduct at issue is not inherently expressive. Like the hypothetical observer in
FAIR—who, absent explanation, would have no idea why a military recruiter would be

-29-

APPENDIX 29

CASE 0:20-cv-01688-PJS-ECW Doc. 51 Filed 10/02/20 Page 30 of 35

interviewing law students somewhere other than on a law‐school campus, id.—an
observer would have no idea why someone is not wearing a face covering. Absent
explanation, the observer would not know whether the person is exempt from EO 20‐
81, or simply forgot to bring a face covering, or is trying to convey a political message.
That fact takes the conduct outside of the First Amendment protection afforded by
O’Brien. Id. (“The fact that such explanatory speech is necessary is strong evidence that
the conduct at issue here is not so inherently expressive that it warrants protection
under O’Brien.”).
Even if wearing or not wearing a face covering was inherently expressive, EO 20‐
81 is clearly constitutional, whether analyzed under O’Brien or Jacobson. Under O’Brien,
a government regulation is sufficiently justified if it is within
the constitutional power of the Government; if it furthers an
important or substantial governmental interest; if the
governmental interest is unrelated to the suppression of free
expression; and if the incidental restriction on alleged First
Amendment freedoms is no greater than is essential to the
furtherance of that interest.
O’Brien, 391 U.S. at 377.
There is no question that Minnesota has the constitutional authority to enact
measures to protect the health and safety of its citizens. See Jacobson, 197 U.S. at 24–25
(under the Constitution, states retain the general police power to enact reasonable
regulations to protect public health and safety). Likewise, there is no question that

-30-

APPENDIX 30

CASE 0:20-cv-01688-PJS-ECW Doc. 51 Filed 10/02/20 Page 31 of 35

EO 20‐81 furthers the substantial government interest in controlling the spread of a
deadly and highly contagious disease. As discussed above, federal health officials
recommend face coverings as an effective way to slow the spread of COVID‐19, and this
recommendation finds support in recent studies. Finally, EO 20‐81 is unrelated to the
suppression of free expression and has at most an incidental effect on First Amendment
freedoms that is no greater than necessary; plaintiffs are free to express their opinions
about EO 20‐81 in every conceivable way except by violating its provisions and putting
at risk the lives and health of their fellow citizens.
Likewise, EO 20‐81 is constitutional under the standard established in Jacobson,
which requires courts to examine whether a measure adopted to address a public‐
health crisis has a “real or substantial relation” to the crisis and, assuming that it has
such a relation, whether it is “beyond all question, a plain, palpable invasion” of a
constitutional right. Jacobson, 197 U.S. at 31; see In re Rutledge, 956 F.3d 1018, 1028–29
(8th Cir. 2020) (applying Jacobson to assess the constitutionality of a measure adopted in
response to the COVID‐19‐pandemic). Again, there is no question that EO 20‐81 bears a
real and substantial relation to the public‐health crisis caused by COVID‐19. And EO
20‐81 either does not implicate the First Amendment at all or, at most, has an incidental
and trivial impact on First Amendment freedoms. In short, plaintiffs have no chance of
success on their claim that EO 20‐81, standing alone, violates the First Amendment.

-31-

APPENDIX 31

CASE 0:20-cv-01688-PJS-ECW Doc. 51 Filed 10/02/20 Page 32 of 35

C. Threat of Irreparable Harm, Balance of Harms, and the Public Interest
Plaintiffs have not shown a threat of irreparable harm. They likely lack standing
to pursue any claims against the Ramsey defendants or the Secretary of State. Similarly,
they likely lack standing to pursue any standalone challenge to the validity of EO 20‐81.
Even if they had standing to pursue a standalone challenge, the Court would likely lack
jurisdiction to entertain their state‐law attacks, and they would have virtually no chance
of success on their federal‐law attacks.
That leaves plaintiffs’ claim that the alleged conflict between EO 20‐81 and
§ 609.735 infringes their First Amendment rights. “When a plaintiff has shown a likely
violation of his or her First Amendment rights, the other requirements for obtaining a
preliminary injunction are generally deemed to have been satisfied.” Minn. Citizens
Concerned for Life v. Swanson, 692 F.3d 864, 870 (8th Cir. 2012) (en banc) (citation and
quotation marks omitted). This is the rare case, however, in which this general rule
does not hold sway. Even if plaintiffs had a “fair chance of prevailing” on their claim
that a conflict between EO 20‐81 and § 609.735 violates their First Amendment rights,
they have not shown a threat of irreparable harm, because they have not shown that
there is any chance that they will actually be prosecuted for violating § 609.735 if they
wear a face covering in compliance with EO 20‐81.

-32-

APPENDIX 32

CASE 0:20-cv-01688-PJS-ECW Doc. 51 Filed 10/02/20 Page 33 of 35

The record before the Court contains no evidence that either § 609.735 or its
predecessor has ever been enforced, despite being on the books for nearly a century.13
Meanwhile, over the past six months, millions of Minnesotans have worn face coverings
in indoor public settings, such as stores, restaurants, salons, medical facilities, places of
worship, offices, and classrooms. If plaintiffs’ reading of § 609.735 is correct, then the
statute has been violated hundreds of millions of times during the pandemic. And yet
plaintiffs cannot point to a single instance of anyone being prosecuted under § 609.735
for wearing a face covering during the pandemic.
This is hardly surprising, as EO 20‐81 itself makes clear that it is the state’s
official policy that complying with EO 20‐81 does not violate § 609.735. Plaintiffs did
manage to find a county attorney who was willing to opine that complying with EO 20‐
81 would violate § 609.735. (The county attorney did not address any of the evidence to

13

Section 609.735 has been mentioned in only a handful of reported cases and has
never been mentioned in connection with an actual prosecution under that statute. In
United States v. Pentaleri, No. 07‐CV‐0298 (PAM/JJG), 2007 WL 4350798 (D. Minn.
Dec. 11, 2007), the district court noted that there was probable cause to arrest because,
among other reasons, the defendant appeared to have violated § 609.735. Id. at *5.
There is no suggestion that the defendant was in fact arrested on that basis, however;
instead, the court was applying the objective standard applicable under the Fourth
Amendment. Id. In Stepnes v. Ritschel, 663 F.3d 952 (8th Cir. 2011), the Eighth Circuit
mentioned that the plaintiff was booked for a violation of § 609.735. Id. at 958. There is
no mention of the plaintiff wearing any kind of disguise, however, and the district‐court
decision indicates that the plaintiff was booked for unlawful gambling under a
mistaken statutory citation. Stepnes v. Ritschel, 771 F. Supp. 2d 1019, 1028 (D. Minn.
2011).
-33-

APPENDIX 33

CASE 0:20-cv-01688-PJS-ECW Doc. 51 Filed 10/02/20 Page 34 of 35

the contrary discussed above.) Putting aside the fact that none of the plaintiffs live in
this county attorney’s jurisdiction or even allege that they plan to visit that jurisdiction,
this county attorney does not go so far as to say that he has prosecuted or would
prosecute someone for wearing a mask in the midst of this pandemic.
In addition, given that their alleged inability to vote in person is a focal point of
plaintiffs’ allegations of irreparable harm, it is worth noting that plaintiffs can vote in
person without fear of prosecution under § 609.735. According to the Secretary of
State’s guidance, anyone who does not want to wear a mask at a polling place may vote
curbside. Am. Compl. Ex. 2.
In contrast to the non‐existent threat of prosecution under § 609.735, the threat of
harm from an injunction prohibiting the enforcement of EO 20‐81 is immediate and
compelling.14 The Governor’s order addresses an ongoing public‐health emergency by
requiring a measure that federal health officials recommend and that studies have

14

Plaintiffs seek the following injunction: “The Defendants are enjoined from
enforcing Minnesota’s policy criminalizing wearing a mask and not wearing a mask in
public places and in polling places.” ECF No. 21. The Court notes, however, that even
if an injunction were required to protect plaintiffs from a conflict between EO 20‐81 and
§ 609.735, the Court would not necessarily have to enjoin the enforcement of EO 20‐81.
The Court could instead enjoin the enforcement of § 609.735 against anyone wearing a
mask in compliance with EO 20‐81. Given that the choice would be between enjoining a
particular application of a never‐enforced statute, on the one hand, and enjoining an
executive order that is saving lives during an ongoing public‐health crisis, on the other
hand, the balance of harms and the public interest would overwhelmingly point toward
enjoining enforcement of § 609.735.
-34-

APPENDIX 34

CASE 0:20-cv-01688-PJS-ECW Doc. 51 Filed 10/02/20 Page 35 of 35

predicted will save thousands of lives. Moreover, while plaintiffs focus on the alleged
harm to their ability to vote in person, it is far more likely that enjoining enforcement of
EO 20‐81 would seriously disrupt the upcoming election by discouraging voter turnout
and limiting the number of people willing to staff polling places. The balance of harms
and the public interest both weigh very heavily against enjoining enforcement of EO 20‐
81.
Having carefully considered all of the Dataphase factors, the Court finds that
plaintiffs are not entitled to a preliminary injunction.
ORDER
Based on the foregoing, and on all of the files, records, and proceedings herein,
IT IS HEREBY ORDERED THAT plaintiffs’ motion for a preliminary injunction [ECF
No. 8] is DENIED.
LET JUDGMENT BE ENTERED ACCORDINGLY.
Dated: October 2, 2020

s/Patrick J. Schiltz
Patrick J. Schiltz
United States District Judge

-35-

APPENDIX 35

CASE 0:20-cv-01688-PJS-ECW Doc. 65 Filed 10/13/20 Page 1 of 7

UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA
MINNESOTA VOTERS ALLIANCE;
ANDREW CILEK; KIM CROCKETT;
CRAIG ANDERSON; YVONNE
HUNDSHAMER; and CRAIG JONES,

Case No. 20‐CV‐1688 (PJS/ECW)

Plaintiffs,
v.

ORDER

TIM WALZ, in his official capacity as
Governor of Minnesota; STEVE SIMON,
in his official capacity as Secretary of
State of Minnesota; MARK V. CHAPIN,
in his official capacity as Hennepin
County Auditor; CHRISTOPHER A.
SAMUEL, in his official capacity as
Ramsey County Auditor; KEITH
ELLISON, in his official capacity as
Attorney General of Minnesota; MIKE
FREEMAN, in his official capacity as
Hennepin County Attorney; and JOHN
CHOI, in his official capacity as Ramsey
County Attorney,
Defendants.

Erick G. Kaardal, MOHRMAN, KAARDAL & ERICKSON, P.A., for plaintiffs.
Elizabeth C. Kramer, Megan J. McKenzie, and Kevin A. Finnerty, MINNESOTA
ATTORNEY GENERAL’S OFFICE, for defendants Tim Walz, Steve Simon, and
Keith Ellison.
Kelly K. Pierce and Jeffrey M. Wojciechowski, HENNEPIN COUNTY
ATTORNEY’S OFFICE, for defendants Mike Freeman and Mark V. Chapin.

APPENDIX 36

CASE 0:20-cv-01688-PJS-ECW Doc. 65 Filed 10/13/20 Page 2 of 7

Robert B. Roche, RAMSEY COUNTY ATTORNEY’S OFFICE, for defendants
John Choi and Christopher A. Samuel.
On July 22, 2020, Governor Tim Walz issued Executive Order 20‐81 (“EO 20‐81”),
which requires Minnesotans to wear face coverings in indoor public settings in order to
slow the spread of COVID‐19. Plaintiffs filed this action to challenge the legality of
EO 20‐81 and sought a preliminary injunction, which the Court denied. See ECF No. 51.
Plaintiffs filed an appeal of that denial and now seek (1) a stay of this action pending
appeal and (2) an injunction pending appeal.
With respect to plaintiffs’ request for a stay of this action pending appeal:
Ordinarily, the filing of a notice of appeal divests the district court of jurisdiction. See
Griggs v. Provident Consumer Disc. Co., 459 U.S. 56, 58 (1982) (per curiam) (“The filing of
a notice of appeal is an event of jurisdictional significance—it confers jurisdiction on the
court of appeals and divests the district court of its control over those aspects of the case
involved in the appeal.”). However, the filing of a notice of appeal from an order
disposing of a motion for a preliminary injunction “does not ipso facto divest the
district court of jurisdiction to proceed with the cause with respect to any matter not
involved in the appeal, or operate to automatically stay other proceedings in the cause
pending the appeal.” Janousek v. Doyle, 313 F.2d 916, 920 (8th Cir. 1963) (per curiam).1
1

Later Eighth Circuit cases seem to indicate that district courts still have
jurisdiction over the merits notwithstanding the pendency of an appeal from an order
(continued...)
-2-

APPENDIX 37

CASE 0:20-cv-01688-PJS-ECW Doc. 65 Filed 10/13/20 Page 3 of 7

Defendants have filed motions to dismiss this action. In support of those
motions, defendants make arguments that are essentially the same as the arguments
that they made in opposing plaintiffs’ motion for a preliminary injunction. Under
Janousek, then, the Court appears to lack jurisdiction to further address the merits of
plaintiffs’ claims, as those merits are intimately “involved in the appeal.” Even if the
Court has jurisdiction, however, the Court finds that a temporary stay is warranted, as
the appeal is likely to resolve some of the legal issues in dispute, and a stay will not
impose any hardship on defendants. See Clinton v. Jones, 520 U.S. 681, 706 (1997) (“The
District Court has broad discretion to stay proceedings as an incident to its power to
control its own docket.”); Frable v. Synchrony Bank, 215 F. Supp. 3d 818, 821 (D. Minn.
2016) (“Relevant factors include the conservation of judicial resources and the parties’
resources, maintaining control of the court’s docket, providing for the just
determination of cases, and hardship or inequity to the party opposing the stay.”).2

1

(...continued)
disposing of a motion for a preliminary injunction. See, e.g., W. Pub. Co. v. Mead Data
Cent., Inc., 799 F.2d 1219, 1229–30 (8th Cir. 1986).
2

Defendants cite the standard that applies under Fed. R. App. P. 8(a)(1)(A),
which governs “a stay of the judgment or order of a district court pending appeal[.]”
Plaintiffs are not seeking a stay of a court order or judgment, however (except insofar as
their separate request for an injunction pending appeal could be interpreted as a request
for a “stay” of the Court’s order denying their motion for a preliminary injunction).
Instead, plaintiffs are seeking to stay the litigation in this Court pending appeal.
-3-

APPENDIX 38

CASE 0:20-cv-01688-PJS-ECW Doc. 65 Filed 10/13/20 Page 4 of 7

The Court will therefore stay this case, but will order the parties to provide an update in
30 days as to the progress of the appeal in order to assess whether to continue the stay.
With respect to plaintiffs’ request for an injunction pending appeal: As the
parties recognize, plaintiffs’ request is governed by the same factors that applied to
their motion for a preliminary injunction, namely: (1) the movant’s likelihood of success
on the merits; (2) the threat of irreparable harm to the movant if the injunction is not
granted; (3) the balance between that harm and the harm that granting the injunction
will inflict on the other parties; and (4) the public interest. See Shrink Mo. Gov’t PAC v.
Adams, 151 F.3d 763, 764 (8th Cir. 1998) (citing Dataphase Sys., Inc. v. C L Sys., Inc., 640
F.2d 109, 114 (8th Cir. 1981) (en banc)).
The Court has already analyzed these factors and explained in detail the basis for
its conclusion that plaintiffs are not entitled to a preliminary injunction. See ECF No. 51.
For the same reasons, the Court determines that plaintiffs are not entitled to an
injunction pending appeal. Only one matter merits comment:
Plaintiffs argue that the Court erroneously failed to apply Minnesota Voters
Alliance v. Mansky, 138 S. Ct. 1876 (2018), to assess their claim that EO 20‐81 conflicts
with Minn. Stat. § 609.735, which prohibits concealing one’s identity “in a public place
by means of a robe, mask, or other disguise.” In Mansky, the Supreme Court addressed
the validity of a Minnesota law prohibiting the wearing of a “political badge, political

-4-

APPENDIX 39

CASE 0:20-cv-01688-PJS-ECW Doc. 65 Filed 10/13/20 Page 5 of 7

button, or other political insignia” at polling places. Mansky, 138 S. Ct. at 1883; see Minn.
Stat. § 211B.11, subd. 1. The Supreme Court held that the law violated the First
Amendment because it broadly prohibited “political” apparel without defining the
word “political,” instead empowering election judges at polling places to determine
whether an individual’s apparel violated the ban. Mansky, 138 S. Ct. at 1888–91. As a
result, the Court held, the law was not “capable of reasoned application.” Id. at 1892.
Plaintiffs argue that here, too, the combination of EO 20‐81 and § 609.735 is not
“capable of reasoned application” because these provisions directly conflict with each
other. As the Court has already held, however, plaintiffs are not likely to succeed in
showing that EO 20‐81 does in fact conflict with § 609.735. Plaintiffs have not suggested
any other reason why EO 20‐81 or § 609.735 are not “capable of reasoned application.”
Plaintiffs contend that, in determining that EO 20‐81 likely does not conflict with
§ 609.735, the Court should not have analyzed how the Minnesota Supreme Court
would likely interpret § 609.735, but instead should have examined how election judges
would interpret that provision. The Court disagrees.
Mansky concerned an explicit restriction of political speech at polling places that
election judges were responsible for interpreting and applying. By contrast, § 609.735 is
a generally applicable law that does not on its face regulate speech or have anything to
do with elections or polling places. Nor is there any suggestion that election judges

-5-

APPENDIX 40

CASE 0:20-cv-01688-PJS-ECW Doc. 65 Filed 10/13/20 Page 6 of 7

have any role to play in interpreting or enforcing § 609.735; unlike in Mansky, plaintiffs
have not cited a single instance in which any election judge has attempted to enforce
§ 609.735 at any polling place, despite the fact that Minnesota held a primary after
EO 20‐81 went into effect. In short, Mansky has little to do with this case.
The threshold question in this case is not how an election judge would interpret
§ 609.735, but rather whether § 609.735 in fact conflicts with EO 20‐81—a legal question
that depends on how the Minnesota Supreme Court would construe the language of
§ 609.735. Were it otherwise, every generally applicable state law that could
conceivably apply to conduct at a polling place—including, say, laws prohibiting
assault, disorderly conduct, or public intoxication—would be subject to challenge on the
basis that some election judge working at some polling place somewhere in Minnesota
might misconstrue it. Mansky cannot be stretched so far.
Plaintiffs’ motion for an injunction pending appeal is denied.
ORDER
Based on the foregoing, and on all of the files, records, and proceedings herein,
IT IS HEREBY ORDERED THAT:
1.

Plaintiffs’ motion to stay and for an injunction pending appeal [ECF
No. 55] is GRANTED IN PART and DENIED IN PART.

-6-

APPENDIX 41

CASE 0:20-cv-01688-PJS-ECW Doc. 65 Filed 10/13/20 Page 7 of 7

2.

The motion is GRANTED to the extent that it seeks a stay of this action,
and this action is hereby STAYED until further order of the Court.

3.

The motion is DENIED to the extent that it seeks an injunction pending
appeal.

4.

No later than 12:00 noon on Friday, November 13, 2020, the parties must
file an update regarding the status of plaintiffs’ appeal.

5.

The November 18, 2020 hearing on defendants’ motions to dismiss is
CANCELED and will be rescheduled at a later date.

Dated: October 13, 2020

s/Patrick J. Schiltz
Patrick J. Schiltz
United States District Judge

-7-

APPENDIX 42

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 20-3072
Minnesota Voters Alliance, et al.
Appellants
v.
Tim Walz, in his official capacity as Governor of Minnesota, or his successor, et al.
Appellees

______________________________________________________________________________
Appeal from U.S. District Court for the District of Minnesota
(0:20-cv-01688-PJS)
______________________________________________________________________________
ORDER
Appellants’ motion for an injunction pending appeal has been considered by the court,
and the motion is denied.

October 26, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
____________________________________
/s/ Michael E. Gans

Appellate Case: 20-3072

APPENDIX 43

Page: 1

Date Filed: 10/26/2020 Entry ID: 4969468

